<html>
<title> - EXAMINING COMPETITIVENESS THROUGH SCIENCE, TECHNOLOGY, ENGINEERING AND MATH</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                       EXAMINING COMPETITIVENESS
                      THROUGH SCIENCE, TECHNOLOGY,
                          ENGINEERING AND MATH

=======================================================================

                             FIELD HEARING

                               before the

                   SUBCOMMITTEE ON HIGHER EDUCATION,
                 LIFELONG LEARNING, AND COMPETITIVENESS

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN POMONA, CA, SEPTEMBER 21, 2007

                               __________

                           Serial No. 110-65

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                                --------

                     U.S. GOVERNMENT PRINTING OFFICE

37-693 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001













                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            Dean Heller, Nevada
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
                                 ------                                

                   SUBCOMMITTEE ON HIGHER EDUCATION,
                 LIFELONG LEARNING, AND COMPETITIVENESS


                    RUBEN HINOJOSA, Texas, Chairman

George Miller, California            Ric Keller, Florida,
John F. Tierney, Massachusetts         Ranking Minority Member
David Wu, Oregon                     Thomas E. Petri, Wisconsin
Timothy H. Bishop, New York          Cathy McMorris Rodgers, Washington
Jason Altmire, Pennsylvania          Virginia Foxx, North Carolina
John A. Yarmuth, Kentucky            John R. ``Randy'' Kuhl, Jr., New 
Joe Courtney, Connecticut                York
Robert E. Andrews, New Jersey        Timothy Walberg, Michigan
Robert C. ``Bobby'' Scott, Virginia  Michael N. Castle, Delaware
Susan A. Davis, California           Mark E. Souder, Indiana
Danny K. Davis, Illinois             Vernon J. Ehlers, Michigan
Mazie Hirono, Hawaii                 Judy Biggert, Illinois































                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on September 21, 2007...............................     1

Statement of Members:
    Hinojosa, Hon. Ruben, Chairman, Subcommittee on Higher 
      Education, Lifelong Learning, and Competitiveness..........     1
        Prepared statement of Frank Reyes, government relations 
          officer, San Bernardino Community College District.....     2

Statement of Witnesses:
    Baker, Warren J., president, California Polytechnic State 
      University.................................................    12
        Prepared statement of....................................    14
    Drummond, Marshall E., chancellor, Los Angeles Community 
      College District...........................................    27
        Prepared statement of....................................    29
    Hackwood, Susan, executive director, California Council on 
      Science and Technology.....................................    34
        Prepared statement of....................................    36
    Reed, Charles B., chancellor, California State University 
      System.....................................................     5
        Prepared statement of....................................     7
    Tarantino, Dr. Frederick A., president and CEO, Universities 
      Space Research Association.................................    19
        Prepared statement of....................................    21
    Ullah, Todd, Ed.D., director of science, Los Angeles Unified 
      School District............................................    30
        Prepared statement of....................................    32























 
                       EXAMINING COMPETITIVENESS
                      THROUGH SCIENCE, TECHNOLOGY,
                          ENGINEERING AND MATH

                              ----------                              


                       Friday, September 21, 2007

                     U.S. House of Representatives

                   Subcommittee on Higher Education,

                 Lifelong Learning, and Competitiveness

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 9:30 a.m., at 
the Kellogg West Conference Center on the campus of California 
State Polytechnic University, 3801 West Temple Avenue, Pomona, 
California 91768, Hon. Ruben Hinojosa, [chairman of the 
subcommittee] presiding.
    Present: Representatives Hinojosa and Hirono.
    Also Present: Representatives Baca and Napolitano.
    Staff Present: Ricardo Martinez, Policy Advisor for the 
Subcommittee on Higher Education, Lifelong Learning and 
Competitiveness.
    Chairman Hinojosa. We are going to get started, and I am 
going to call this meeting to order.
    A quorum is present. The hearing of the subcommittee will 
come to order.
    Before we begin, I would like to thank Ms. Mazie Hirono for 
traveling across the country to participate in this hearing. I 
appreciate all your contributions that you have made to the 
subcommittee's work and look forward to this hearing that we're 
having here in California.
    Also, I would like to ask unanimous consent to invite two 
of our colleagues who are not committee members to join us on 
the dias. Congresswoman Grace Napolitano and Congressman Joe 
Baca, the former chair, and the current chair of the CHC, who 
have long-lasting interests in advancing America's 
competitiveness in the STEM fields.
    Without objection, so ordered.
    Pursuant to the committee rule 12A, any Member may submit 
an opening statement, in writing, which will be made part of 
the permanent record of today's hearing.
    Without objection, all members will have 14 days to submit 
additional materials or questions for the hearing record.
    [The information follows:]
    [Additional statement submitted by Mr. Hinojosa follows:]

 Prepared Statement of Frank Reyes, Government Relations Officer, San 
                 Bernardino Community College District

    Good Morning, Chairman Hinojosa and Ranking Member Keller.
    My name is Frank Reyes, Government Relations Officer for the San 
Bernardino Community College District of California.
    I am honored to be here today representing my college as well as 
the Hispanic Association of Colleges and Universities (HACU), where I 
serve as a member of the HACU Government Relations Committee and a 
member of the Department of Defense/HACU Leadership Group. My 
institution has been a member of HACU for many years and has a strong 
record of advocating for increased educational opportunity, achievement 
and success for Hispanics and other students that attend the more than 
270 Hispanic-Serving Institutions.
    The Hispanic Association of Colleges and Universities and the more 
than 400 U.S. colleges and universities it represents (including the 
nation's Hispanic-Serving Institutions or HSIs) deeply appreciate all 
the work which you have dedicated to the improvement of Hispanic 
education and success. We even more appreciate your decision to explore 
through this public hearing the participation of Hispanics and other 
students in our higher education system in the science, technology, 
engineering and mathematics (STEM) areas of study, research and career 
preparation.
    I want to let you know that HACU is deeply concerned that more 
Hispanics are not selecting STEM fields to prepare for careers in these 
areas vital to the nation's future.
    While Hispanics represent the fastest growing population group 
today and demographers project that this population will account for 
more than 60 percent of the school-age population growth in the next 
decade, today, Hispanics continue to be grossly underrepresented in 
STEM areas. The Division of Science Resources Studies of the National 
Science Foundation (NSF), for example, reports that Hispanics earn only 
2.8 percent of doctorates in science and engineering, compared to 51.4 
percent earned by non-Hispanic whites.
    The National Center for Educational Statistics (NCES) reports that 
for the 2003-2004 academic year, only 104 Hispanic students earned 
doctorate degrees in engineering (out of 5,923 degrees awarded) and 
only 25 earned a doctorate in mathematics and statistics (out of 
1,060). At the master's level, NCES reports that only 114 Hispanics 
students out of 4,191 earned a master's degree in mathematics and 
statistics and only 139 Hispanic students out of 5,570 earned a 
master's degree in physical sciences and technology for the same 
academic year.
    It is this stark reality that motivates HACU to look to the 
National Science Foundation as the premier federal agency to address 
the shortage of Hispanics in STEM areas by investing greater resources 
and forming new collaborations with Hispanic-Serving Institutions to 
increase the quantity and quality of undergraduate and graduate STEM 
programs and research. By increasing the number of STEM programs at 
HSIs, NSF will assist the nation in preparing the STEM professionals so 
necessary for the economic future of the nation. To not do so, will 
place the United States in a precarious position where the nation will 
become more dependent on STEM experts from other countries such as 
China and India.
    Cognizant of this fact and the knowledge that HSIs can play a vital 
role in assisting the nation in maintaining its preeminence of 
innovation in the sciences, mathematics, engineering and advanced 
technologies, HACU developed a blueprint for higher education success 
in the STEM areas and submitted this document to Congress for inclusion 
in the National Science Foundation Reauthorization. ``HACU's Public 
Policy Priorities for the 2007 Reauthorization of the National Science 
Foundation'' calls for greater attention to the education and training 
of a new contingent of experts in STEM areas to meet the workforce 
development needs of the nation.
    It is HACU's conviction that the STEM workforce needs can be met by 
engaging Hispanic-Serving Institutions in the process. HSIs are poised 
to contribute to the rebirth of STEM study in our schools, colleges and 
universities. Information from the College Board and the National 
Center for Education Statistics shows that 111 HSI community colleges 
and 92 four year postsecondary institutions offer associate, 
baccalaureate and graduate programs and degrees in the STEM areas. HSIs 
are prepared for the challenge of meeting the nation's STEM needs, but 
are hampered by under funding from those federal agencies that most 
provide STEM resources.
    HACU has also included this concern in the ``HACU Public Policy 
Priorities for the 2007 Reauthorization of the Elementary and Secondary 
Education Act of 1965 (ESEA). HACU has identified 1600 Hispanic Serving 
School Districts HSSDs schools that have an enrollment of 25% or more 
Hispanic students) tend to be located in district with limited 
resources. Many of math and science teachers lack current advanced 
education in the STEM areas thereby making it difficult to provide 
Advanced Placement Courses for students capable of higher level STEM 
study.
    Without access to AP courses Hispanic students will be limited in 
academic competency in STEM related courses thereby making it more 
difficult to be accepted in colleges and universities as well as to 
begin more advanced STEM courses for those who wish to major in STEM 
related disciplines. In fact, the Digest of Educational Statistics for 
2006 reports that in 2005, 10% of all White students were enrolled in 
A.P. calculus compared to 5.0 % for Hispanic students, a 50% difference 
with a similar statistical gap existing in the AP honor biology 
programs with 17.0% of White students enrolled but only 11.8% 
Hispanics. In Advanced Placement Honors Physics, 5.6% of White students 
were enrolled in comparison to only 3.4% for Hispanics. As a 
consequence, HACU has identified this challenge by incorporating STEM 
competency in HSSDs as a partnership goal for HSIs and HSSDs which 
could be accomplished by replicating a successful HACU-NASA pre-
collegiate STEM program for middle and high school students
    Overall, HACU strongly recommends greater federal attention to STEM 
workforce development at all levels of the educational process 
beginning at the elementary, middle, and high school levels, to prepare 
students for STEM success at the postsecondary education. Only by 
developing a STEM pipeline through all levels of education will we 
experience an increase in interest and enrollment of students in STEM 
areas of study and an increase in number and quality of STEM teachers, 
professors and professionals for the national security and economic 
needs of the nation.
    Chairman Hinojosa, I want to thank you for the opportunity to 
present these written remarks to you and your committee. HACU remains 
fully committed to assist you and your committee to assure that the 
nation remains the world leader in science, technology, engineering and 
mathematics.
                                 ______
                                 
    Chairman Hinojosa. I would like to at this time introduce 
our very distinguished panel of witnesses here with us today, 
this morning. The first one will be Dr. Charles Reed. He is our 
first witness today. He serves as chancellor of the California 
State University and is chief executive officer of the 
country's largest senior system of public higher ed. He 
provides leadership to 46,000 faculty and staff, and 417,000 
students on 23 campuses, and seven off-campus centers.
    The CSU, which spans the entire State of California, has an 
annual budget of more than $5 billion. He has served in a 
similar position in Florida, has a long and honorable history 
of professional contributions in higher education and public 
service.
    He has appeared before our full committee, and a 
subcommittee in Washington before, and it is a pleasure to 
welcome you again.
    The second panelist will be Dr. Warren Baker. He is our 
second witness, and has served as president of California 
Polytechnic State University in San Luis Obispo, California, 
since 1979. He is a former member of the presidential appointee 
of the National Science Board, where he chaired the board's 
Polar Research Committee.
    In addition, he serves on the board of directors of the 
National Association of Universities and Land Grant Colleges, 
and serves as presidential appointee on the board of 
International Food and Agricultural Development for the United 
States Agency for International Development.
    Dr. Baker has earned civil engineering degrees from Notre 
Dame, and his PhD in geothermal engineering from the University 
of New Mexico. Welcome.
    Dr. Frederick Tarantino is the third presenter and is one 
of our neighbors in the Washington Metropolitan area. He holds 
a BS in physics from--I can't even pronounce the name of your 
institute here--Rennsalear Polytechnic Institute.
    He received his master's of science in nuclear sciences 
from the Air Force Institute of Technology and his PhD in 
nuclear reactor physics from MIT.
    In addition, he is also a graduate of the Wharton Business 
School's Advanced Management Program. During his 19 year career 
in the U.S. Army, he held many important posts and later worked 
in the White House on science and technology issues.
    He has also worked for the Bechtel Corporation in the 
private sector. We welcome you.
    Dr. Marshall Drummond is next, and he began working as 
chancellor of the Los Angeles Community College District since 
July 2007. LACCD is the largest community college district in 
the Nation, and it includes nine colleges with an annual budget 
of nearly $1 billion, serving approximately 180,000 students.
    Prior to his current position, he was the chancellor of the 
California Community Colleges, and in that position, he was 
responsible for providing leadership to 72 community colleges, 
districts, statewide. He served as LACCD president for five 
years prior to his statewide appointment and has been a 
professor at various higher education institutions, and has 
also served in the private sector with the Systems and Computer 
Technology Corporation.
    He holds two degrees in science, science management, 
economics, and business from San Jose State University, and his 
doctorate in education from the University of San Francisco. 
Welcome.
    The fifth presenter will be Dr. Todd Ullah, who is 
currently the director of Secondary Science, overseeing all 
curriculum guide development, professional development, 
technology, science facilities development, and science grants 
for the Los Angeles Unified School District.
    He is a five year member of the 11 Region Coordinating 
Council for the California Technology Assistance Project and 
the Statewide Educational Technology Services Program. He has 
over ten years of teaching biological and physical sciences in 
high schools, including special work with charter schools.
    Todd holds a bachelor's of science as well as master's of 
science in biological sciences. Thank you, Todd, for joining us 
and for providing your leadership and professional experience 
on behalf of our younger students.
    Also with us is a very important panelist who I chose, Dr. 
Susan Hackwood, Executive Director of the California Council on 
Science and Technology. She is our final witness. She is 
professor of electrical engineering at the University of 
California-Riverside, and visiting associate in engineering at 
the California Institute of Technology.
    The CCST is a not-for-profit corporation comprised of 150 
science and technology leaders sponsored by the key academic 
and federal research institutions in California. The 
organization advises the state on all aspects of science and 
technology, including stem cell research, intellectual 
property, energy, information technology, and biotechnology, 
and in education.
    Dr. Hackwood received a PhD in solid state bionics in 1979 
from the De Montfort University in the United Kingdom. She was 
the founding dean of the Bourns College of Engineering at UC-
Riverside, and is responsible for all research and teaching 
aspects of five PhD-level programs.
    She has published over 140 technical publications and holds 
seven U.S. patents. Susan is very active, professionally, at 
the national and international levels, but she managed he 
schedule to be with us today. Welcome. We're honored to have 
you.
    For those of you who have not testified before this 
subcommittee, let me briefly explain our lighting system and 
the five minute rule. Everyone, including members, will be 
limited to five minutes of presentation of questioning of the 
presenters. The green light is illuminated when you begin to 
speak. When you see the yellow light, it means you have one 
minute remaining. When you see the red light, it means your 
time has expired and you need to begin conclusion of your 
testimony.
    Please be certain as you testified to turn on the switch 
and speak into the microphone in front of you, so we can get 
the taping and put it into the record.
    We will now hear from our first witness.
    Dr. Reed.

STATEMENT OF DR. CHARLES B. REED, CHANCELLOR, CALIFORNIA STATE 
                           UNIVERSITY

    Dr. Reed. Thank you, Chairman Hinojosa, and members of the 
subcommittee, for inviting us to talk about the critical and 
daunting issues facing California and this entire country.
    Number one is having students prepared for this country's 
future workforce. Number two is alleviating the shortage of 
qualified teachers in the science, technology, engineering and 
mathematic areas, so that students get that needed preparation, 
especially our underserved students.
    In an article that I authored for the November issue of 
Change magazine, I was asked to talk about the greatest 
challenge facing me as chancellor of the California State 
University. I believe it is the urgent need to reach students 
from traditionally underserved populations, to prepare them for 
college, get them into college, and to make sure that they 
graduate into meaningful jobs in this country's workforce.
    They constitute the majority of students in the 23 campuses 
of the California State University, and soon, other states in 
this country will experience this rise in the number of 
students of color.
    That ties in with what we are talking about today. We must 
educate our students better, and to do that, we need teachers 
who are trained in the subjects that they teach.
    I have said for many, many years, that the key to student 
learning is having a good, qualified teacher. There is no 
higher priority. If a student has a high-performing teacher, 
they will learn.
    The California State University prepares about 60 percent, 
or over 13,000 of California's teachers each year. Producing 
high quality math and science teachers is a board of trustees 
policy.
    We requested and received this year, a state budget 
augmentation of over $2 million to support our commitment to 
doubling the number of teachers that we prepare in these 
fields. Our commitment to producing these teachers consists of 
a several part action plan which is detailed in my written 
testimony that we have provided you.
    Through this plan, we've increased math and science 
teachers by 37.6 percent in the last two years.
    We've increased our preparation of math teachers 64 
percent, responding to the crisis in California in which we 
have over 70,000 middle school students, mostly from minority 
and low-income homes, that have algebra teachers who are not 
prepared to teach algebra.
    Production of chemistry and physics teachers in the CSU 
fields, with severe shortages, has expanded 42 percent. This 
too is essential. Currently, nearly one-third of the physical 
science teachers are underprepared in California.
    Key elements of our plan that have led to the increases 
include recruitment initiatives, new teacher credential 
pathways, Web-supported instructional materials, better 
collaboration with community colleges, financial support for 
teacher candidates, and thank you for what you did for Pell and 
for the new teachers for the inner cities, and especially our 
focus on underserved populations. And lastly, partnering with 
federal labs in business and industry.
    President Baker from our Cal Poly campus will talk to you, 
in a little more detail, about our initiatives with the 
national labs.
    Please also see the addendum on Cal State Fullerton's 
initiative on STEM programs, which it has quadrupled the number 
of math teachers is prepares, and one reason it was chosen as a 
national case study.
    Now, in addition to what we are doing in teacher 
preparation, the CSU is absolutely committed to reaching out to 
the state's diverse communities and providing access to college 
that will translate into successful entry into the state's 
workforce. I'll mention just a few programs, and they're all 
referred in my written testimony.
    The CSU works closely with the Hispanic Association of 
Colleges and Universities to recruit and retain Latino 
students. Twenty-six percent of our 420,000 students are 
Latino. We also work with the Parent Institute for Quality 
Education, PIQE, to get Latino parents, especially mothers, 
involved in their children's education, and help them navigate 
the college admission and financial Agency for International 
Development area. We graduated 7,700 Latinos this last year in 
our PIQE program.
    We have given out, this last year, 1.3 million of these 
posters to students throughout California, and this poster 
tells you how to go to college. How to apply, how to get 
financial aid, how to get federal financial aid.
    More recently, we've expanded our partnership with HENAC, 
the Hispanic Engineering National Achievement Corporation. 
Their office is across the street from Cal State University Los 
Angeles, which is across the freeway from East Los Angeles. 
HENAC has been approved by the Department of Defense for a five 
year, $10 million program, called Value Chain Project.
    The Value Chain Project is targeted at producing Latino 
engineers and having Latino engineering mentors as role models 
in the classroom. They've adopted 13 elementary schools that 
feed into three middle schools, which feed into one high 
school. The project starts with 4th graders. That's the right 
place to start.
    We also have to support your Gear Up, TRIO, and Upward 
Bound programs. The California State University is the largest 
beneficiary of Gear Up, TRIO, and Upward Bound.
    This past year, the CSU instituted a systemwide 
professional science master's program, that offers innovative 
master's degrees, which prepares students to develop the 
science, technology and management skills needed for today's 
workforce.
    Many of these students are underrepresented minority 
students. We institute an early assessment program where the 
California State University offers a test to every 11th grader 
in California.
    This year, we tested more than 340,000 students, some 
450,000 in English and in mathematics, and we gave them an 
early ``heads up'' as to whether they are prepared to go to 
college or not.
    One of the big things in this country that we need to do, 
is to align our expectations in universities with high school 
curriculum. And so we're trying to do that.
    Once our students enter one of our 23 campuses, they get 
involved in many programs to excel in the STEM fields. For 
instance, our minority access to research careers, our minority 
biomedical research support programs, help these students. One 
measure of our success is that the National Science Foundation 
has identified the California State University as top 
baccalaureate-producing program for students who get doctor's 
degrees in science.
    Five of the CSU campuses are among the top 50 institution 
in the United States in producing Hispanic doctoral recipients.
    Chairman Hinojosa. I ask you to please bring it to 
conclusion.
    Dr. Reed. I have given you many numbers. I want to leave 
you with what the California State University is more about 
than just the numbers. It's about success. It's about paying 
attention. When I say ``paying attention,'' we care about our 
underserved students. We want to go out and get those students 
to attend the CSU. We want to help them not only get access but 
to graduate and to enter the workforce in this country. Thank 
you very much.
    [The statement of Dr. Reed follows:]

  Prepared Statement of Charles B. Reed, Chancellor, California State 
                           University System

    Chairman Hinojosa and members of the Sub-Committee, thank you for 
inviting me to discuss the commitment of the California State 
University (CSU) to ensuring that all students in California are 
equipped to enter the workforce well-prepared and that the needs for 
skilled professionals are met in fields that are central to the state's 
economic competitiveness. I will focus my comments on the critically 
needed foundation for preparation in the science, technology, 
engineering and mathematics (STEM) fields, with particular attention to 
increasing the participation of underrepresented students in these 
fields. The most basic foundation for any advances in STEM fields is 
having sufficient numbers of well-qualified mathematics and science 
teachers, and I will describe the CSU commitment to doubling teachers 
in these fields--a major systemwide priority.
The California State University: Context
    Few, if any, university systems match the scope of the CSU system. 
It is the largest four-year university system in the country, with 23 
campuses, approximately 450,000 students and 46,000 faculty and staff. 
The CSU mission is to provide high-quality, affordable education to 
meet the ever-changing needs of the people of California. Since the 
system's creation in 1961, it has awarded approximately 2 million 
degrees. The CSU currently awards approximately 92,000 degrees and 
13,000 teacher credentials each year.
    The CSU plays a critical role in preparing California's youth for 
the job market. Our graduates help drive California's aerospace, 
healthcare, entertainment, information technology, biomedical, 
international trade, education, and multimedia industries. The CSU 
confers 65 percent of California's bachelor's degrees in business, 52 
percent of its bachelor's degrees in agricultural business and 
agricultural engineering, and 45 percent of its bachelor's degrees in 
computer and electronic engineering. The CSU also educates the 
professionals needed to lead and serve in the state's major 
institutions. It provides bachelor's degrees to teachers and education 
staff (87 percent), criminal justice workers (89 percent), social 
workers (87 percent) and public administrators (82 percent). 
Altogether, about half the bachelor's degrees and a third of the 
master's degrees awarded each year in California are from the CSU.
    One key feature of the CSU is its affordability. For 2007-08, the 
CSU systemwide fee for full-time undergraduate students is $2,772. With 
individual campus fees added, the CSU total fees average $3,450, which 
is the lowest among any of the comparison public institutions 
nationwide.
    Close to sixty percent of the teachers credentialed in California 
(and ten percent of the nation's teachers) each year are prepared by 
the CSU. High quality teacher preparation is one of the top priorities 
of the system and the CSU Board of Trustees. In 2005, the system made 
the preparation of additional science and mathematics teachers one of 
its foremost goals. Reflecting this commitment, the CSU system 
requested and received in the 2007-08 state budget a permanent 
augmentation of $2 million to support this major commitment on an 
ongoing basis.
Maintaining California's Competitiveness: Mathematics and Science 
        Teacher Preparation
    Rising Above the Gathering Storm,\1\ the widely respected report 
issued by the National Academies of Science and Engineering in 2006, 
underscored the centrality of the mathematics and science teaching 
force in securing the nation's economic future. In its recommendations, 
the report placed the highest priority on recruitment and preparation 
of outstanding candidates for teaching in these fields. It emphasized 
that the US system of public education is the foundation for a 
workforce that is proficient in mathematics and science, fields 
critical to the nation's economic survival, and that the most critical 
resource, and the one in increasingly short supply, is excellent 
teachers in these fields.
---------------------------------------------------------------------------
    \1\ National Academies of Sciences and Engineering. (2006). Rising 
Above the Gathering Storm: Energizing and Employing American for a 
Brighter Economic Future. Washington, DC: National Academy Press.
---------------------------------------------------------------------------
    Two and a half years ago, I made the commitment to double the 
number of mathematics and science teachers prepared by the CSU by 2009-
10. This meant increasing from a baseline figure of approximately 750 
new mathematics and science teachers produced each year to preparation 
of 1,500 new teachers in these fields annually. Since that time, our 
Mathematics and Science Teacher Initiative (MSTI) \2\ has increased 
production of teachers in these disciplines by 37.6%.
---------------------------------------------------------------------------
    \2\ See http:///www.calstate.edu/teachered/MSTI.
---------------------------------------------------------------------------
    We have increased production of mathematics teachers by more than 
60%, responding to significant needs in California: 35% of current 
middle school teachers assigned to teach Algebra 1 do not have a 
mathematics credential. Approximately 69,000 middle school students are 
enrolled in Algebra 1 classes where the teacher is under-prepared or 
teaching out-of-field. Students in schools that are predominantly 
minority are four times as likely to have under-prepared mathematics 
and science teachers as students in schools with few minority students.
    Production of chemistry and physics teachers--fields with severe 
shortages--has expanded by 42%. This, too, is essential. Currently, 
nearly one-third of physical science teachers are either under-prepared 
or assigned out-of-field, and under-represented students are taught by 
the least qualified teachers in these fields.
    The CSU has brought together the leadership of its undergraduate 
programs in mathematics and science and its teacher education programs 
to address severe teacher shortages in these fields. In 2005, CSU 
awarded 651 math, 1,930 biological sciences, and 516 physical sciences 
(chemistry, geosciences, and physics) undergraduate degrees. Although 
these are only some of the fields that lead to teaching credentials in 
mathematics and science, the figures provide an indication of the CSU 
institutional capacity that is and will continue to be built upon to 
prepare the mathematics and science teachers the state needs.
Components of the CSU Mathematics and Science Teacher Initiative
    The CSU Math and Science Teacher Initiative began in 2004-05 
through a planning process involving all of its 22 campuses that 
prepare teachers. A seven-part action plan was developed that is 
focused on doubling mathematics and science credential production 
through multiple strategies.
            Component #1. Comprehensive Recruitment Aimed at Expanding 
                    and Diversifying the Pool of Candidates
    Objective: To significantly expand recruitment of new mathematics 
and science teacher candidates
    Programs: Comprehensive, sustained, and innovative recruitment and 
marketing initiatives
    The first component of the CSU action plan is directed toward 
substantially expanding and diversifying the pool of qualified 
candidates entering mathematics and science teaching. It is a broadly-
based recruitment effort targeted to college students and recent 
graduates, community college and high school students, mid-career and 
pre-retirement professionals, recent retirees, and teachers with the 
potential to change fields.
            Component #2. Creation of New Credential Pathways
    Objective: To establish multiple new pathways to mathematics and 
science teaching credentials
    Programs: A broad range of new programs beginning at the freshman 
level and continuing through fast-track post-baccalaureate options
    A central part of the CSU strategy to expand mathematics and 
science teacher production is the creation of new credential pathways. 
The purpose is to establish multiple points of entry into these fields 
for individuals at different educational and career stages. New 
pathways include, for example, (1) blended programs for undergraduates 
in which an academic major and teacher preparation are integrated in an 
articulated program of study, and (2) a new Foundational Level 
mathematics credential for middle school teachers accessible to 
candidates earning a multiple subject credential for grades K-8 as well 
as a single subject credential for secondary grades.
            Component #3. Internet-Supported Delivery of Instruction
    Objective: To create systemwide Internet-supported mathematics and 
science credential preparation resources
    Program: New online-supported teacher preparation programs in 
mathematics and science
    To accommodate the needs of diverse pools of candidates, flexible 
preparation options are needed that allow for online learning. The CSU 
initiative includes development of Internet-supported instruction both 
for preparation to pass required California Subject Examination for 
Teachers (CSET) tests and to make academic course work available 
online.
            Component #4. Collaboration with Community Colleges
    Objective: To implement integrated 2-year/4-year mathematics and 
science credential preparation programs with California's community 
colleges
    Programs: Partnerships with community colleges that align lower 
division and upper division mathematics and science teacher preparation 
and institutionalize early recruitment and academic advising for 
teaching careers in these fields
    A central component of the CSU approach is collaboration with 
community colleges in integrated 2-year to 4-year programs that provide 
an articulated and continuous sequence of preparation for mathematics 
and science teaching. The Chancellor's Offices of the CSU and of the 
California Community College System have entered into a Memorandum of 
Understanding (MOU) that advances system-level strategies to 
institutionalize articulated pathways.
            Component #5. Financial Support and Incentives
    Objective: To provide financial support for new mathematics and 
science teachers through the full array of available fiscal resources
    Programs: Scholarships, loan assumption programs, paid tutoring, 
service learning, school district internships
    An important component of CSU's strategy--one essential for its 
success--is providing support for candidates through scholarships and 
loan assumption/cancellation programs, paid tutoring, and internship 
opportunities that make teacher preparation financially attainable and 
attractive for college students of all backgrounds. This is 
particularly important because significantly increasing participation 
from underrepresented groups, those most often in need of financial 
assistance, is a central component of CSU's strategy.
    A major effort has been undertaken by CSU in collaboration with the 
California Student Aid Commission to foster maximum utilization of 
California's Assumption Program of Loans for Education (APLE). This 
important state program for future teachers provides up to $19,000 of 
loan forgiveness for new mathematics and science teachers. CSU campuses 
have awarded loan cancellation awards to more than 6,000 teacher 
education students in the past year, enabling them to enter the 
teaching profession in shortage fields with little or no debt.
    The federal Noyce Scholarship program is another important source 
of financial aid. Twelve CSU campuses have received competitive grants 
from the National Science Foundation, averaging over $400,000 each, to 
implement Noyce scholarship programs. These funds have enabled them to 
provide scholarships of $10,000 per year for up to two years for future 
mathematics and science teachers--both upper division undergraduates 
and teacher credential candidates in these fields.\3\
---------------------------------------------------------------------------
    \3\ Under the America COMPETES Act, total funding for Noyce 
scholarships through NSF is authorized to increase significantly, and 
the period during which candidates can receive $10,000 scholarships is 
extended to three years.
---------------------------------------------------------------------------
    Paid tutoring is another important vehicle providing financial 
support and recruitment benefits. Research shows that the desire to 
assist others is a primary factor in recruitment into mathematics and 
science teaching and that the opportunity to do so enhances the quality 
of new teacher preparation in these fields. At CSU campuses like San 
Diego State University, community college students interested in 
mathematics or science teaching serve as paid tutors for 20 hours a 
week. They work with students from nearby school districts that serve 
predominantly minority students with the goal of increasing their 
preparation and participation in post-secondary education.
            Component #6: Identifying and Scaling-Up Approaches Having 
                    Significant Potential
    Objective: To identify and scale-up cost-effective mathematics and 
science teacher recruitment and preparation approaches
    Programs: Expanding approaches that have been demonstrated to be 
effective
    The CSU strategy is a carefully planned one aimed at identifying, 
analyzing, and scaling up especially promising and cost-effective 
approaches for preparing highly qualified mathematics and science 
teachers. Examples of strategies identified for scale-up to-date 
include aligned programs of preparation with community colleges, online 
preparation for the California Subject Examination for Teachers (CSET), 
and programs in which undergraduates provide lab-based science 
activities for local students from low-income and minority schools.
            Component #7. Partnerships with Federal Laboratories, 
                    Business and Industry
    Objective: To establish and institutionalize partnerships that 
enhance the attractiveness of teaching careers in mathematics and 
science
    Programs: Partnerships with federal laboratories, business and 
industry enriching mathematics and science teachers' career 
opportunities
    Long-term success in increasing recruitment, preparation, and 
retention of mathematics and science teachers requires career 
opportunities that encourage the brightest STEM majors to enter and 
remain in teaching careers. Engaging in science research at federal 
laboratories and/or industry sites can re-invent and revitalize 
mathematics and science teaching and significantly enhance the 
attractiveness of careers in these fields.
    Consistent with the recommendations of the Business Higher 
Education Forum in An American Imperative,\4\ the report that reflects 
the results of a major project co-chaired by President Warren Baker, 
the CSU has begun an initiative with Lawrence Livermore National 
Laboratory aimed at enabling outstanding science undergraduates 
interested in becoming teaching candidates to work at the Lab on a paid 
basis during the summer. This type of program, which increases the 
quality of science teacher preparation and the interest of science 
majors in teaching careers, is especially promising, and we urge 
greater federal support for these types of programs for future teachers 
at federal laboratories.
---------------------------------------------------------------------------
    \4\ Business Higher Education Forum. (2007). An American 
Imperative: Transforming the Recruitment, Retention, and Renewal of our 
Nation's mathematics and Science Teaching Workforce. Washington, D.C.: 
BHEF.
---------------------------------------------------------------------------
CSU STEM Activities Focused on College Access and Preparation
    Strengthening the K-12 pipeline by increasing the numbers of well-
qualified mathematics and science teachers is one critical underpinning 
of improving California's competitiveness. The CSU is also engaged in a 
broad range of activities focused on enhancing college access and 
academic preparation for California's diverse population that 
contribute in significant ways to preparing the workforce that is 
critical to the state's economic prosperity. For example:
    <bullet> The CSU is deeply engaged in efforts to ensure college 
access for diverse populations of high school students. The system is 
the most prominent and prolific system in the Hispanic Association of 
Colleges and Universities (HACU), with 19 of our 23 campuses 
participating actively. Since the 1970's, the CSU has been one of the 
most Latino friendly university system in the nation. Today, 26.2% of 
our students are Latino.
    <bullet> The CSU is committed to ensuring minority parent awareness 
and understanding of higher education. We have a three-year partnership 
with Parent Institute for Quality Education (PIQE) reaching 120 middle 
schools, 8,000 parents, and 25,000 school children every year. Its 
purpose is to increase the number of students eligible to enter the CSU 
from underserved communities. Through this partnership, parents are 
receiving training and resources that will prepare their children for a 
college education. The partnership helps parents to create a home 
learning environment, navigate the school system, and work 
collaboratively with teachers, counselors, and principals.
    <bullet> The CSU has focused outreach activities aimed at creating 
a college-going culture among minority and low-income students 
throughout their elementary and secondary experience. In a partnership 
with the Boeing Corporation, the CSU publishes its now widely acclaimed 
``How to Get to College'' poster. For California students who will be 
the first in their families to go to college, the information in this 
widely distributed poster about the steps to prepare for and apply for 
college and financial aid is extremely valuable. CSU has distributed 
the poster in English and Spanish to schools throughout California and 
now also distributes copies in Chinese, Korean, and Vietnamese.
    <bullet> The CSU has a deep commitment to outreach programs 
equipping students from underrepresented groups for success in college. 
Our federal GEAR UP, TRIO, and Upward Bound programs are the largest in 
the country and represent major priorities across the entire CSU 
system. For example, eleven CSU campuses have been the fiscal agent for 
GEAR UP grants totaling over $112 million since the inception of the 
program in 1999, using these resources to encourage economically 
disadvantaged youth to aspire to college and preparing them for college 
and success.
    <bullet> The CSU is dedicated to supporting talent development 
programs for students from underserved communities. For example, the 
CSU has nine MESA pre-college sites and eight MESA engineering program 
centers. CSU campuses with pre-college MESA programs work with over 180 
schools and serve more than 9,000 students annually. Nearly 50% of the 
students in the MESA Community College Program in California transfer 
to CSU campuses and major in mathematics, engineering, science or 
technology.
    <bullet> The CSU is engaged in partnerships having significant 
promise for preparing new groups of STEM professionals from diverse 
backgrounds who are first generation college goers. For example, we are 
working closely with the Hispanic Engineers National Achievement Awards 
Corporation (HENAAC) in planning a program that will provide early STEM 
career awareness and preparation for elementary, middle and high school 
students in inner city Los Angeles. HENAAC has developed plans for an 
outstanding project that will involve CSU Los Angeles as the primary 
higher education partner, include students, their families and 
teachers, and will be made possible through support of the Office of 
Naval Research.
    While these targeted programs provide essential assistance to 
underrepresented students, programs that enhance the capacity of 
secondary schools to prepare all students for college success are also 
essential. The CSU Early Assessment Program is a nationally recognized 
collaboration involving the CSU, the California Department of 
Education, and the State Board of Education. It provides the 
opportunity for high school students to learn about their readiness for 
college-level English and mathematics in their junior year, and it 
makes available opportunities for them to improve these skills during 
their senior year so they can enter the CSU without requiring remedial 
coursework. By providing professional development for English and 
mathematics teachers across the state, the EAP is a major resource for 
increasing the readiness of students from high need communities to 
enter college ready for success.
Concluding Comments
    The CSU has a significant commitment to advancing California's 
competitiveness, and is dedicated to building the foundations that are 
critical to preparing all students for STEM careers. This includes: (a) 
preparing the mathematics and science teachers needed to equip 
California's students for success in STEM fields and (b) fostering 
access to STEM fields among students from the underrepresented groups 
that are an increasingly large portion of our workforce.
    When students from diverse backgrounds begin their study on CSU 
campuses, there are dozens of outstanding programs that enable them to 
select and excel in STEM fields. Programs that provide special 
resources for these students include, for example, the excellent Louis 
Stokes Alliance for Minority Participation programs, the Minority 
Access to Research Careers (MARC) programs, and the Minority Biomedical 
Research Support (MBRS) programs found across CSU campuses. Also, many 
of our campuses foster undergraduate and master's level research in the 
STEM disciplines, leading to increased readiness among our students to 
become research and development STEM professionals. As evidence of our 
effectiveness, the National Science Foundation has consistently 
identified the CSU as a top baccalaureate institution of origin for 
STEM doctorate recipients. For example, a recent published study 
identified five CSU campuses among the top 50 undergraduate 
institutions of origin of Hispanic doctoral recipients.
    There are, in addition, outstanding engineering programs that focus 
on increasing the numbers of underrepresented students excelling in 
engineering careers in the CSU. Programs such as the Minority 
Engineering Program (MEP) make available exceptional engineering 
opportunities and have significantly expanded participation of Latino 
and African-American students.
    This past year, the CSU initiated a systemwide Professional Science 
Master's (PSM) program that offers innovative Master's degrees that 
prepare students for the state's highest growth sectors in industry and 
government. Eighteen PSM programs are in place or underway. Industry 
partners in PSM programs nationally include some of the nation's 
foremost science and technology firms. Enrollment of underrepresented 
minority students is substantial, and the 18 planned CSU programs will 
enable students from diverse backgrounds to develop the science, 
technology and management skills most needed in today's workforce.
    The fundamental components of the CSU and the state's success 
reside in (a) developing the foundations for STEM careers through 
teacher preparation, (b) increasing access and participation of 
underrepresented groups, and (c) monitoring of the effectiveness of our 
efforts. These are approaches where the CSU has done more than almost 
any other institution in the nation and is committed to continuing its 
leadership.
    Preparing an outstanding teaching force and making CSU a route of 
access for underrepresented students are guiding visions underlying our 
priorities as a system. We rigorously measure the outcomes of our 
efforts and make the adjustments to ensure our programs are effective. 
Through our hundreds of baccalaureate and master's degree programs, we 
will build on these critical underpinnings and continuously contribute 
to the future workforce needed to secure California's competitiveness 
in a global market.
    I will be glad to respond to any questions you may have, and look 
forward to working with you in the future.
                                 ______
                                 
    Chairman Hinojosa. Thank you.
    Dr. Baker.

     STATEMENT OF DR. WARREN BAKER, PRESIDENT, CALIFORNIA 
                  POLYTECHNIC STATE UNIVERSITY

    Dr. Baker Thank you very much, Chairman Hinojosa. I 
appreciate the opportunity to comment on policy options for the 
renewal of California and the Nation's science and technology 
workforce, and our continued global technological and economic 
leadership.
    We face considerable challenge sin renewing our college-
educated science and technology workforce, and a few statistics 
help illustrate the magnitude of the challenge that we have 
here in California.
    We know that in 2006, approximately 48 percent of our 
public school students were Hispanic, 20 percent were African, 
Asian and Native American. In addition, 25 percent of those 
students in the K-12 population were English learners.
    The college participation rates of many of these students 
is way too low. A 2002 report estimated that less than 5 
percent of California's Latino high school students graduate 
with college-ready skills.
    We're not on track to meet California's need for college-
educated workers, and by 2020, we will face a 20 percent 
shortfall in the number of workers that we will need requiring 
college education.
    We've seen early warning signs of the consequences for 
science, technology, engineering and mathematics education. In 
the 1990's, the number of California bachelor's degrees in math 
and engineering declined by 13 percent.
    California will see a significant decline in per capita 
income by 2020 unless rates of educational achievement improve, 
and this will occur across the Nation. To divert these dire 
trends, we must bring more students into higher education. To 
preserve the state's capacity for discovery and innovation, we 
must bring more students into STEM disciplines, and we must 
have a strong K-12 STEM education system aligned with the 
expectations of higher education and with industry.
    And we must, most importantly, have qualified, effective 
and inspiring teachers in science and mathematics in the 
classroom for every student, teaching in a multilingual 
minority population as well.
    Some steps that are being taken to address these were 
outlined by Chancellor Reed in his testimony, describing what 
the California State University is doing to provide access to 
California's population of young people, and as a university, 
one of the universities, we have formed P-12 councils and 
provided opportunities to work together with the constituents 
who have an interest in furthering the improvement of our K-12 
system.
    Earlier this summer, the Business Higher Education Forum, 
and other members of the initiative, Tapping America's 
Potential, wrote to Representatives Miller and Hinojosa, and 
other Congressional leaders, in support of reauthorization of 
the Higher Education Act, and, in particular, the policies that 
would improve U.S. STEM education at all levels.
    I am supportive of these recommendations and I would also 
invite the subcommittee to review the findings and 
recommendations of two recent business higher education reports 
that Raytheon CEO Bill Swanson and I co-chaired. the first, in 
2005, a commitment to America's future, responding to the 
crisis in mathematics and science education, and the most 
recent, 2007 report, An American Imperative, Transforming the 
Recruitment, Retention and Renewal of our Nation's Mathematics 
and Science Teaching Workforce.
    In keeping with the spirit of the recommendations of TAC 
and the Business Higher Education Forum STEM initiative, I 
would like to encourage the committee to give special 
consideration to several potential initiatives which are in my 
written testimony.
    I would like to point out three of these. First, I would 
encourage consideration of federal policies that support the 
establishing of P-16 councils in each of the 50 states, charged 
with developing statewide plans to promote and strengthen 
student access and success in science and mathematics, from 
pre-school to university, with particular emphasis on 
leadership from business.
    Second, federal policies that support and encourage the 
work of established and effective STEM outreach recruitment and 
retention programs, like these that I have shown on this slide.
    And finally, federal policies that support the extension of 
what we call a teacher as scientist programs, which meets the 
requirements that we hear from young people considering 
teaching programs, about being involved in science. And the 
national labs programs have been particularly effective, here, 
in the State of California, where we have had experienced 
teachers having opportunities to work in the summer and to 
provide hybrid opportunities and careers for these students in 
the national labs while they are teaching, primarily in the 
summer.
    We also know that these programs have doubled the rate of 
retention compared to the average science and math teacher, 
when they participate in these programs with the national labs, 
and, by the way, corporate and private laboratories as well.
    We also believe that this will be an effective recruitment 
tool, and we have launched a program this summer, with Lawrence 
Livermore, to bring prospective teachers of science and 
mathematics into these laboratories.
    I interviewed all of these students this summer and asked 
them if they were going to continue to pursue careers in 
teaching. They were even more excited about the opportunities 
that they could bring in hands-on learning, and in critical 
thinking, to the classroom as a result of their experiences 
with the national labs. Thank you very much.
    [The statement of Dr. Baker follows:]

     Prepared Statement of Warren J. Baker, President, California 
                      Polytechnic State University

    To Chairman Hinojosa and members of the Sub-Committee, I would like 
to express my appreciation for the opportunity to comment on the 
growing need for graduates in science, technology, engineering and 
mathematics (STEM) disciplines, some of the steps we are taking at 
California Polytechnic State University (Cal Poly) to address this 
need, and additional policy measures that might be implemented at the 
federal level to help us address this issue at the state and local 
level.
Background
    The United States and particularly California have enjoyed 
significant economic gains over the past half century. Much of this 
growth has come from investments in science, engineering and technology 
education and research and from creation of the world's pre-eminent 
universities. Thanks to investments since WWII, we have become the 
world leader in scientific and technological discovery and innovation, 
to the great benefit of our standard of living and quality of life. Our 
leadership position is now being challenged by rapid progress in 
science and technology in other industrialized nations, fueled by 
strong rates of public investment in education and research, including 
establishment of first-class universities.
    According to the National Science Foundation's biennial report on 
science and engineering, natural science and engineering doctoral 
degree production is either not increasing or declining in Western 
nations like the U.S., United Kingdom and Germany, while it is 
increasing in China, South Korea and Japan (NSB 2006:2-6). The 
proportion of U.S. bachelor's degrees conferred in science and 
engineering disciplines remained relatively constant over the past two 
decades (about one-third of the total), but the proportion of degrees 
granted in engineering declined from seven percent to five percent 
during that period (NSB 2006:2-4). The report documents continued low 
rates of baccalaureate degree completion among underrepresented 
minorities in the U.S. For example, only 10 percent of Hispanics aged 
25-29 had completed a baccalaureate degree in 2003, compared to 34 
percent of whites (NSB 2006:2-5). This is a particularly worrisome 
statistic for California, with its large Hispanic population. A 2002 
report estimated that ``less than five percent of [California] Latino 
high school students graduate with college-ready skills'' (CCST 
2002:45). We have seen early warning signs of the potential 
consequences of the state's changing demographics for STEM education. 
In the 1990s, the number of California baccalaureate degrees in 
mathematics and engineering experienced a 13 percent decline (CCST 
2002:67).
    Recently, a number of celebrated reports have called for renewed 
investment in STEM education to reverse decline in the nation's 
relative strength in science and technology and regain our 
technological leadership. To cite just a few examples:
    <bullet> In 2005 a blue ribbon committee of the National Academies, 
responding to a congressional charge, issued the report, ``Rising Above 
the Gathering Storm.'' It recommended key steps the nation must take to 
preserve its capacity to compete technologically and economically in an 
increasingly competitive global environment. Two of the four main 
recommendations in this report called upon the nation to expand its 
investment in STEM education--from kindergarten through graduate 
school.
    <bullet> In two other recent national reports, the Business-Higher 
Education Forum highlighted the critical role that K-12 science and 
mathematics education play in preparing students to pursue STEM 
careers:
    <bullet> the 2005 report, ``A Commitment to America's Future: 
Responding to the Crisis in Mathematics and Science Education,'' and
    <bullet> the 2007 report, ``An American Imperative: Transforming 
the Recruitment, Retention, and Renewal Of Our Nation's Mathematics and 
Science Teaching Workforce.''
    These reports call upon the nation to make it an urgent national 
priority to strengthen K-12 science and mathematics education and in 
particular to invest in renewal of the science and mathematics teacher 
workforce.
    <bullet> The California Council on Science and Technology raised 
similar concerns in several reports over the past decade:
    <bullet> the 1999 ``California Report on the Environment for 
Science and Technology,''
    <bullet> the 2002 ``Critical Path Analysis of California's S&T 
Education System,'' and
    <bullet> the 2007 ``Critical Path Analysis of California's Science 
and Mathematics Teacher Preparation System.''
    These reports documented strong continuing demand for science and 
technology workers in the California economy, an educational system 
that is failing to keep pace with this demand, and a K-12 science and 
mathematics teacher workforce that is being eroded by retirements and 
attrition without sufficient numbers of qualified replacement teachers.
    Against the background of these reports, and with the assistance of 
other recent policy analyses, I would like to share several 
observations on the nature of the challenges we face and steps we can 
take to sustain and renew the California STEM workforce and ensure 
continued vitality of the State's economy.
    <bullet> California will need a growing number of college-educated 
workers in coming decades, but we are falling short in meeting this 
demand. According to the Public Policy Institute of California, in 2020 
75 percent of jobs will require at least some college but only 61 
percent of the workforce will have achieved this level of education; 39 
percent of jobs will require a college degree but only 33 percent of 
workers will have attained one (Public Policy Institute of California 
2005:1).
    <bullet> Given projected rates of educational participation and 
achievement, the state will experience significant decline in per 
capita income. This is something that should concern all Californians. 
The National Center for Higher Education Management Systems has 
projected the future economic consequences of educational trends in the 
fifty states. California is projected to experience a $2,475 decline in 
per capita income by 2020 if we are not successful in increasing rates 
of educational participation and completion (Kelly 2005:25).
    <bullet> Our ability to remain globally competitive as a state 
depends especially on our capacity for scientific and technical 
innovation. This in turn depends on our ability to engage students at a 
young age in the study of science and mathematics and to encourage them 
to embark upon college and university programs in STEM disciplines.
    <bullet> We know that a strong K-12 educational system, with a 
curriculum and pedagogy responsive to the expectations of higher 
education and the workforce, is of critical importance in meeting our 
future STEM workforce needs.
    <bullet> We also know from educational research that perhaps the 
single most important thing we can do to promote student involvement 
and success in STEM disciplines is to be sure that every K-12 student 
is taught science and math by competent, effective and inspiring 
science and math teachers while we continue to make needed investments 
in college programs, laboratories and faculty.
    <bullet> But we face significant challenges:
    While progress has been made through the implementation of new 
educational standards in California and the other states, additional 
work is needed to ensure that K-12 educational systems are responsive 
to the expectations and requirements of colleges, universities and 
workplaces.
    The U.S. will need more than 280,000 new mathematics and science 
teachers by 2015 (BHEF 2007:4). We face a similar challenge in 
California. Over the next decade the state will need over 33,000 new 
mathematics and science teachers (CCST 2007:3). Even though the CSU and 
UC systems have ambitious plans to increase the number of science and 
math teachers they prepare, we have not yet caught up with demand. In 
2005-06, 35 percent of new California science teachers and 40 percent 
of new math teachers were under-prepared (lacking even a preliminary 
teaching credential) (CCST 2007:22). Shortages of qualified science and 
math teachers are particularly acute at schools that have large 
percentages of students from minority and low-income backgrounds.
    To ensure a continued adequate supply of science and technology 
innovators in California, we must continue to work to strengthen K-12 
science and math programs and make it a special priority to prepare a 
new generation of science and mathematics teachers.
    We must also invest in our universities and community colleges to 
increase access to STEM programs and to ensure that those programs are 
innovative, of high quality and responsive to rapid changes in science, 
technology and society. Weak STEM programs in K-16 education are now 
resulting in a shortage of advanced degrees in STEM fields. We will 
soon feel these effects in our universities and national laboratories.
Some Steps Being Taken at Cal Poly to Address the Crisis in STEM 
        Education
    Chancellor Reed's testimony to the committee describes in some 
detail steps being taken by the California State University to address 
the State's need for STEM graduates and in particular the need for 
qualified and inspiring science and mathematics teachers. I would like 
to share with the committee some steps that are being taken at one 
campus, in collaboration with partners in government and industry, to 
strengthen collaboration with the K-12 system and community colleges 
and to prepare additional science and mathematics teachers.
K-12/Higher Education/Industry Collaboration
    In April of 2005, a P-16 Council was established in San Luis Obispo 
County. It has brought together leaders in K-16 education, business, 
and the community to address ``critical gaps in educational 
achievement.''
    An early focus of the Council's work is an initiative on 
Mathematics and Science Education. It has identified the following 
goals:
    1. Recruit and prepare well qualified P-16 teachers in science and 
mathematics.
    2. Provide professional development for P-16 science and 
mathematics teachers.
    3. Engage P-16 students in science and math and promote careers in 
science, technology, engineering and mathematics (STEM).
    4. Serve as a repository/disseminator of best practices in P-16 
science and mathematics Education.\1\
---------------------------------------------------------------------------
    \1\ Cal Poly Center for Excellence in Science and Mathematics 
Education (http://cesame.calpoly.edu/P-16.htm)
---------------------------------------------------------------------------
    While this local effort is still in its early stages, we concur 
with the Business-Higher Education Forum and others that P-16 Councils 
can play critical roles in bringing together education, business and 
community stakeholders to achieve greater alignment of the educational 
segments and stronger preparation of graduates to meet the expectations 
of workplaces and higher education programs.
Teacher Recruitment and Preparation
    Cal Poly has taken several important steps to address the state's 
need for science and mathematics teachers, including:
    1. Development of a new undergraduate program that prepares 
chemistry majors for teaching careers in four years and a term.
    2. Collaboration between the College of Education, College of 
Science and Mathematics and College of Engineering in teacher 
recruitment and preparation.
    3. Creation of a University Center for Excellence in Science and 
Mathematics Education (CESaME) with the following goals:\2\
---------------------------------------------------------------------------
    \2\ Cal Poly Center for Excellence in Science and Mathematics 
Education (http://cesame.calpoly.edu/Vision.htm)
---------------------------------------------------------------------------
    <bullet> To help recruit and prepare K-12 teachers who are 
confident of their skills in mathematics and their understanding of the 
natural world, and who are dedicated to helping all children to become 
scientific literate citizens of the 21st Century.
    <bullet> To offer practicing K-12 teachers opportunities to enhance 
their knowledge of science and mathematics and to guide them to the 
``best pedagogical practices'' of presenting that knowledge to children 
and young people.
    <bullet> To explore and develop new ways of enhancing the science 
and mathematics learning of all students K-16, particularly less 
advantaged students.
    <bullet> To promote careers in Science, Mathematics, Engineering 
and Technology(STEM) among K-12 students.
    4. Recruitment of prospective science teachers through a Teacher-
Scientist model that introduces science majors to a dual career as 
teacher during the academic year and paid science researcher in the 
summer.
    Across the country, through partnerships with Federal laboratories 
and with major science and technology firms, science and mathematics 
teachers have opportunities to participate in summer laboratory 
research programs and enjoy an innovative career pathway in which they 
are both teachers and researchers.
    Sometimes called ``teacher as scientist'' programs, these 
opportunities:
    <bullet> Allow teachers to gain first hand experience in the 
applications of science and mathematics within applied research 
settings.
    <bullet> Foster inquiry-based teaching and learning strategies.
    <bullet> Foster development of learning communities in the schools 
and a sense of participation by science and math teachers in an 
extended community of scientific colleagues.
    <bullet> Include the added prestige of teachers having a joint 
assignment in an industry setting.
    <bullet> Provide opportunities for teachers to supplement their 
salaries.
    <bullet> Open the door to assistance from industry and national 
labs with school laboratories, including support for experiments, field 
trips, and guest scientists.
    There is evidence that these programs promote science and math 
teacher retention. For example, impressive results have been reported 
by Industry Initiatives for Science and Math Education (IISME), 
``founded in 1985 by a consortium of San Francisco Bay Area companies 
in partnership with the Lawrence Hall of Science at the University of 
California at Berkeley'' to allow teachers to carry out summer projects 
in industry settings (See: http://iisme.org/). A 2001 evaluation of the 
IISME program found that IISME teacher participants (``Fellows '') were 
only half as likely to leave classroom teaching as other California 
teachers (Weisbaum and Huang 2001:3).
    We believe that teacher scientist programs may also have a positive 
impact on the recruitment of science and mathematics teachers. 
Therefore, in collaboration with the CSU Chancellor's Office, CSU-East 
Bay, a number of sister CSU campuses and Lawrence Livermore National 
Laboratory, Cal Poly is exploring an expanded vision of the teacher 
scientist program concept, extending this opportunity to science majors 
who are prospective teachers.. We believe this pilot program's emphasis 
on pre-service candidates and early development of a dual career 
identity is perhaps unique.
    A pilot Teacher Scientist project was undertaken this summer at 
Lawrence Livermore National Laboratory. It placed 16 outstanding 
science majors from four CSU campuses in research labs for paid summer 
research internships. Half were majors in the three areas in which the 
state faces the severest shortages of science teachers: physics, 
chemistry, and geosciences. The purpose was to enable these science 
majors, all of whom had a serious interest in high school teaching, to 
begin an innovative science career that combines teaching at the 
secondary grade level with paid summer research on a sustained basis.
    Initial evaluation results have been highly positive. The 16 CSU 
students were judged as being well-prepared research team members by 
the mentor scientists with whom they worked. Each prepared a high 
quality presentation for the Lab's annual student Poster Session. The 
students identified a broad range of areas in which they gained 
significant knowledge, ranging from a conceptual understanding of the 
research issues explored, to a deep appreciation of the nature of 
scientific inquiry and an understanding of the most sophisticated 
equipment used in scientific research. Participants have the 
opportunity to participate in paid summer experience during future 
years. Long-term evaluation of this pilot is planned, with a design 
that focuses on the impacts of the laboratory research experience and 
the hybrid science teacher identity on the professional paths of these 
science majors.
STEM Outreach and Recruitment
    Universities like Cal Poly have important responsibilities for 
outreach to parents and prospective students to encourage preparation 
for collegiate study. In Cal Poly's case we have particular 
responsibility in the State of California for fostering awareness of 
STEM academic and career opportunities and we have a number of programs 
and initiatives that work to promote wider participation by California 
students in these fields and disciplines. I will mention a few examples 
of efforts that we believe to be effective:
    <bullet> Cal Poly's Admissions Office uses sophisticated targeted 
marketing approaches to reach out to 10th and 11th grade prospective 
students all across the State of California, including students from 
populations traditionally underrepresented in STEM academic programs. 
As described by James Maraviglia, Assistant Vice President for 
Admissions, Recruitment and Financial Aid, methods used to communicate 
with these prospective applicants include ``flash/video e-messages, 
broadcast phone messages, text messages, parent and student blogs, our 
new student portal, direct mail, virtual view books and 
telemarketing.'' For fall 2007 Cal Poly received a record number of 
undergraduate applicants for the 13th year in a row (34,173). The 
campus received applications from over five thousand Hispanic/Latino 
students, double the number received in 2000.
    <bullet> During the past few years, Cal Poly has developed a 
special relationship with 191 ``Partner'' high schools, all of which 
have a large percentage of first generation students as well as 
historically low college-going rates. We help students at these schools 
to learn about Cal Poly and encourage them to complete the rigorous 
course of study necessary to be competitive in Cal Poly's admissions 
selection process.
    <bullet> In collaboration with the California-based ``Parent 
Institute for Quality Education'' Cal Poly is bringing information 
about college readiness to parents of elementary and middle school 
students in communities traditionally underrepresented in higher 
education. Recently a first cohort of 160 parents of students in 
Guadalupe, a predominantly Hispanic central coast agricultural 
community, completed a nine week program that gives them skills to aid 
their children in preparing for college.
    <bullet> With support from the University of California, Cal Poly 
conducts a MESA Schools Program (Mathematics, Engineering, Science, 
Achievement) to promote science and math success among pre-college 
students and awareness and participation in STEM higher education 
programs.
    <bullet> Cal Poly student engineering association chapters 
participate in invaluable STEM-related outreach to diverse K-12 student 
populations. Examples of these student organizations include Cal Poly 
chapters of AISES (the American Indian Science and Engineering 
Society), SHPE (the Society of Hispanic Professional Engineers), NSBE 
(the National Society of Black Engineers), and SWE (the Society of 
Women Engineers).
    These are just a few examples of an array of outreach efforts at 
Cal Poly--formal and informal--that engage students, faculty and staff 
in promoting awareness of STEM academic and career opportunities and 
encourage students to prepare for post-secondary study in these 
disciplines.
Potential Federal Policy Initiatives
    Earlier this summer, the Business-Higher Education Forum and other 
members of the initiative, ``Tapping America's Potential,'' wrote to 
Senators Kennedy and Enzi and Representatives Miller, McKeon, Hinojosa 
and Keller in support of reauthorization of the Higher Education Act 
(HEA), and in particular ``policies that would improve U.S. science, 
technology, engineering and mathematics (STEM) education at all 
levels'' (TAP 2007).
    The letter urges federal policy support for efforts to:
    1. Align K-12 Education with College and Workplace Expectations: 
The TAP letter advocates grants in support of state P-16 councils, as a 
key to strengthening the ability of schools and teachers to prepare 
graduates, whether they are moving into the workforce or pursuing 
further study. At Cal Poly we believe P-16 councils at all levels can 
play an extremely valuable role in ensuring that students receive early 
and ongoing preparation in science and mathematics so that they may go 
on to pursue careers and/or advanced study in STEM fields. These 
councils also provide an important opportunity for business to assume a 
position of expanded policy leadership in support of efforts to reform 
and strengthen P-16 education.
    2. Recruit and Retain High Quality and Effective Math and Science 
Teachers: The TAP letter echoes the recent Business-Higher Education 
report and other recent reports in calling for policy initiatives to 
``attract and retain math and science teachers and strengthen teacher 
preparation programs.'' Financial assistance for aspiring teachers, 
better alignment of teacher preparation with state content standards, 
incentives for math and science teachers to serve at ``high-need 
schools'' are among the promising measures recommended. In addition to 
these recommendations, I might also suggest consideration of support 
and incentives for expansion of Teacher Scientist programs in industry 
and national labs, providing laboratory research experiences starting 
in the pre-service phase of student preparation and extending into at 
least the early years of their teaching careers.
    3. Motivate Students to Study and Enter STEM Careers: The TAP 
letter advocates ``incentives for colleges and universities to produce 
more STEM graduates,'' including expanded support for undergraduate and 
graduate scholarships for STEM students and support for development of 
professional science master's degree programs. Along with these 
promising recommendations I would suggest considering additional steps 
to support and encourage the work of established and effective STEM 
outreach, recruitment and retention programs, including but not limited 
to programs like MESA (Mathematics, Engineering, Science, Achievement) 
and organizations like the National Action Council for Minorities in 
Engineering (NACME), AISES (the American Indian Science and Engineering 
Society), SHPE (the Society of Hispanic Professional Engineers), NSBE 
(the National Society of Black Engineers), and SWE (the Society of 
Women Engineers). Among the outreach initiatives that have shown 
particular merit and promise over the years, one might include summer 
campus for elementary and middle school girls, engineering summer camps 
and robotics competitions.
References Cited:
            Business-Higher Education Forum (BHEF)
2005 ``A Commitment to America's Future: Responding to the Crisis in 
        Mathematics and Science Education.''
2007 ``An American Imperative: Transforming the Recruitment, Retention, 
        and Renewal Of Our Nation's Mathematics and Science Teaching 
        Workforce.''
            California Council on Science and Technology (CCST)
1999 ``California Report on the Environment for Science and 
        Technology.''
2002 ``Critical Path Analysis of California's S&T Education System.''
2007 ``Critical Path Analysis of California's Science and Mathematics 
        Teacher Preparation System.''
            Cal Poly Center for Excellence in Science and Mathematics 
                    Education (http://cesame.calpoly.edu) Kelly, 
                    Patrick J.
2005 ``As America Becomes More Diverse: The Impact of State Higher 
        Education Inequality.'' National Center for Higher Education 
        Management Systems (NCHEMS).
            National Academy of Sciences, National Academy of 
                    Engineering, Institute of Medicine
2007. ``Rising Above The Gathering Storm: Energizing and Employing 
        America for a Brighter Economic Future. Committee on Prospering 
        in the Global Economy of the 21st Century: An Agenda for 
        American Science and Technology.''
            National Science Board (NSB)
2006. Science and Engineering Indicators 2006. Washington, DC.
            Public Policy Institute of California
2005 ``Getting to 2025: Can California Meet the Challenge.'' Research 
        Brief, Issue #100, June 2005.
            Tapping America's Potential (TAP)
June 8, 2007 letter to Senators Kennedy and Enzi and Representatives 
        Miller, McKeon, Hinojosa and Keller regarding reauthorization 
        of the Higher Education Act (HEA) (http://www.tap2015.org/news/
        HEA--letter.pdf). Weisbaum, Kathryn Sloane and Danny Huang
2000 ``IISME Teacher Retention and Program Impact 1985-2000.'' Industry 
        Initiatives for Science and Mathematics Education (IISME).
                                 ______
                                 
    Chairman Hinojosa. Thank you very much.
    Dr. Tarantino.

STATEMENT OF DR. FRED TARANTINO, PRESIDENT, UNIVERSITIES SPACE 
                      RESEARCH ASSOCIATION

    Dr. Tarantino. Chairman Hinojosa, thank you for this 
opportunity to appear before this committee today.
    It is my pleasure to testify on a topic that is important 
to all of us, American competitiveness in science, technology, 
engineering and mathematics disciplines.
    My remarks draw from my experience as the president and CEO 
of the University Space Research Association, USRA, a nonprofit 
association of 101 major space science and technology research 
universities.
    As a long-term federal partner, USRA provides a mechanism 
through which universities can cooperate effectively with one 
another, with the Government and with other organizations, to 
further knowledge in space science and technology and to 
promote education in these areas.
    As you know, American competitiveness in math and science 
is declining. This decline is occurring just as space is 
generating new opportunities. Space isn't just creating jobs. 
It's creating entirely new markets and prospects for economic 
growth that have not previously existed.
    It is affecting every aspect of how we live, enabling 
communications, telemedicine, point to point GPS navigation, 
weather and climate modeling, and is even starting to form an 
embryonic tourism business in Earth orbit.
    Another very important benefit of space research is the 
skills it develops in people. Succeeding in the ever-
heightening global competitive environment requires 
technological innovation to drive competitiveness and growth.
    Many things can cause innovation to occur. However, in 
space, scientists and engineers are compelled to innovate 
daily. Space research, including human and robotic exploration 
of space, cannot be accomplished without know-how beyond what 
we have today. It is bold, exciting science and engineering. It 
inspires people to do their best, to innovate and discover on a 
scale that is unmatched anywhere else.
    That innovation translates into improved competitiveness, 
broadly, across all economic sectors, not only in space, but in 
areas as diverse as commercial electronics, medical treatment 
and disaster preparedness.
    USRA's member institutions have spent considerable time 
studying this, and, in turn, USRA strongly supports funding for 
the Congressional innovation agenda in the president's American 
competitiveness Initiative.
    These should help address key needs to replace an aging 
space workforce. Today, our institutions of higher education 
are producing insufficient numbers of graduates to meet the 
space workforce needs.
    A key reason for this is that within universities, there 
are fewer opportunities for students to gain experience they 
need. For example, a review of the annual number of flight 
opportunities where graduate students can be involved in 
designing and experiment, building hardware, and analyze net 
data that returns after it is launched into space, shows a 
steady decline, over time.
    In fact, over the last 40 years, U.S. suborbital launches 
have decreased 80 percent, from 270 per year to just 50 planned 
launches this year, in 2007. This has resulted in a severe drop 
in the training opportunities our universities provide 
students, in turn, limit the ability to recruit students into 
space studies.
    Without such research, it is not possible to train the 
highly-specialized workforce that would keep America 
competitive in space and receive the associated benefits that 
provides.
    This issue is very important to USRA's members. Last year, 
we canvassed our universities on their most pressing concerns. 
The response was surprising for its uniformity and unanimity. 
Across the country, faculty representatives cited the shortfall 
in student space-flight opportunities as the single most 
important need.
    At our annual meeting this year, members voted unanimously 
on a resolution urging action, and for this reason USRA is 
asking Congress to double spending on research and training 
opportunities for students in these areas.
    We also have considerable success in motivating students by 
introducing them to the space research environment.
    For example, USRA is the NASA contractor for the 
Stratospheric Observatory for Infrared Astronomy, SOFIA.
    Managed here, in California, at the Dryden and Ames 
Research Centers, SOFIA is a world-class astronomical 
observation in a Boeing 747 aircraft. It is designed to make 
observations while flying at 40- to 45,000 feet, and will begin 
collecting scientific data in 2009.
    SOFIA also provides a unique educational resource that will 
unite teachers and practicing scientists in meaningful long-
term relationships. The aircraft has a special educator seating 
section, that will enable thousands of teachers to fly aboard 
the observatory during its lifetime and directly contribute the 
recommendations of the Rising Above The Gathering Storm report 
to train 10,000 teachers, 10 million minds.
    It is the only major astronomical observatory designed from 
the start to foster partnerships between educators and 
scientists in the operating research environment.
    In closing, I would like to commend the subcommittee for 
its commitment to our universities and for support of higher 
education funding.
    Thank you for this opportunity to appear before you today. 
I look forward to working with you and I am happy to answer any 
questions.
    [The statement of Dr. Tarantino follows:]

 Prepared Statement of Dr. Frederick A. Tarantino, President and CEO, 
                Universities Space Research Association

    Chairman Hinojosa, Ranking Member Keller and Members of the 
Subcommittee, thank you for this opportunity to appear before the 
Subcommittee on Higher Education, Lifelong Learning and Competitiveness 
of the House Education and Labor Committee. It is my pleasure to 
testify today on a topic that is so important to all of us--American 
competitiveness in the science, technology, engineering and mathematics 
disciplines.
    My remarks draw from my experience as the President and CEO of the 
Universities Space Research Association (USRA), a non-profit 
association of 101 major space science and technology research 
universities.\1\ As a long-term partner with the federal government on 
a variety of initiatives that extend the boundaries of our scientific 
expertise, USRA provides a mechanism through which universities can 
cooperate effectively with one another, with the government, and with 
other organizations to further space science and technology, and to 
promote education in these areas.
    To give you a context for my passion for this subject, I would like 
to share with you a bit about my background. While with the U.S. Army, 
I served in a variety of space power research and program management 
assignments. I later served as Defense Liaison in the White House 
Office of Science and Technology Policy, and as Executive Assistant to 
the National Security Council Senior Director for Science and 
Technology. In the private sector, I was the President and General 
Manager of Bechtel Nevada Corporation, responsible for management and 
operations of the Nevada Test Site, and as the Principal Associate 
Director at Los Alamos National Laboratory with responsibility for 
managing the laboratory's science-based weapons stewardship program.
    Through my experiences in the government, private sector and a non-
profit university research association, I have gained an appreciation 
for the importance of education and research in the science and 
technology fields.
    Today, I would like to discuss three topics that are essential to 
our national education and workforce development initiatives. First, 
the critical workforce need of the 21st century in space sciences and 
technology. Second, the importance of strengthening our nation's 
education and public outreach programs, and finally, the need for 
federal reinvestments in university research programs.
    As is well known, the status of American competitiveness in the 
important areas of math and science is declining. In 2005, the National 
Academies of Sciences report titled ``Rising Above the Gathering Storm: 
Energizing and Employing America for a Brighter Economic Future'' 
recommended: (1) improving K-12 math and science education, (2) 
sustaining and strengthening basic research, (3) enhancing higher 
education in science and engineering, and (4) creating economic 
incentives for innovation.\2\
    USRA's member institutions have spent considerable time reviewing 
these findings and, in turn, USRA has developed four recommendations 
for improving American competitiveness in the science and engineering 
fields. First, we must increase funding for Education and Public 
Outreach programs at the university level. Second, Congress must 
appropriate sufficient funding for the various elements of the 
Congressional Innovation Agenda and the President's American 
Competitive Initiative. Third, Congress must include adequate funding 
for NASA in its Innovation Agenda and American Competitiveness 
Initiative plans. Finally, Congress must double in five years federal 
spending on research and training opportunities for undergraduate and 
graduate students in the mathematics, the physical sciences and 
engineering disciplines.
Workforce Needs of the 21st Century
    Today, the technical workforce in the aerospace and space science 
industry is facing two key issues: (1) the need to replace an aging 
workforce, and (2) the need to provide highly technical training at the 
university level to develop the future leaders of U.S. space research. 
Statistics highlighting the aging American aerospace workforce are well 
documented: \3\
    <bullet> The U.S. aerospace industry employed an average of about 
630,000 workers in 2006, and 75,000 of these workers are in space-
related jobs (31,400 military and 43,600 civilian).
    <bullet> 27% of the aerospace engineering workforce will be 
eligible for retirement by 2008.
    Similarly, institutions of higher education are not producing a 
sufficient number of students to fill the workforce needs of the 
aerospace industry.
    <bullet> Of the 70,000 engineers graduating annually, only about 
40,000 are qualified to work for the U.S. aerospace industry.
    These problems are occurring for two key reasons: (1) competition 
for America's best minds has shifted much of the resources and talent 
towards scientific pursuits in other areas such as computer programming 
and related next-generation high-tech specialties, and (2) there are 
fewer opportunities than ever for the next generation of students to 
gain the training and experience they need to succeed in tomorrow's 
aerospace specialties. A review of the annual number of flight 
opportunities where graduate students can be involved in building 
hardware and analyzing the space data returned from it shows a steady 
decline over the last two decades. In fact, over the last 40 years, 
U.S. suborbital experimental launches have decreased 80%--from 270 per 
year to just 50 planned launches in 2007. Decreases in suborbital 
launches have resulted in a corresponding drop in the hands-on training 
opportunities our universities provide to undergraduate, masters and 
doctoral students in hard sciences, and have limited our universities' 
ability to recruit high quality students into space studies. Without 
these hands-on research opportunities at the university level, it is 
not possible to train a highly specialized technical workforce that 
will keep America competitive in the future global economy.
    This issue is of critical important to USRA's member universities. 
Last year, we canvassed our members on their most pressing interests 
and concerns that needed to be addressed at the national level. The 
response was surprising for its uniformity and unanimity. Across the 
country, faculty representatives from our member universities cited the 
shortfall of student space-flight opportunities providing graduate 
student involvement as the single most important need.
    In response, USRA began working to address this issue. At USRA's 
annual meeting in March of 2007, our 101 member university body 
unanimously passed a resolution (attached to this report) urging 
federal support for increased student opportunities to get hands-on 
experience in space tests. Given the graduate program structure, these 
opportunities are most often found on sounding rocket, balloon, and 
small spacecraft flights.
    To help maintain American competitiveness in critical areas to 
national economics and security, USRA is asking Congress to double in 
five years federal spending on research and training opportunities for 
graduate students in mathematics, sciences and engineering disciplines.
Strengthening Education and Public Outreach Programs
    Ever since the 1983 Department of Education (DOEd) report, A Nation 
at Risk, pointed out significant shortcomings within the American 
public school systems, the national education reform effort has been 
building. As part of its mission, the National Science Foundation (NSF) 
has compiled reports on the health of the nation's educational system. 
Two interrelated reports, supplying data on U.S. mathematics and 
science education, indicate results of national and local level reform 
efforts are generally positive, but mixed.\4\ The average amount of 
classroom time devoted to science and math for grades one through six 
rose substantially since the late 1970s. Schools are imposing stricter 
science and mathematics high school graduation requirements, and are 
increasing availability of advanced science and mathematics courses 
nationwide.\5\ On the other hand, the report documents great 
disparities in proficiency gains from state to state scores for white 
students remain significantly higher than for black and Hispanic 
students; and the U.S. still fares poorly in comparison to other 
developed countries. The NSF, as well as the Department of Education, 
has been working toward the ``systemic'' reform of grades K-12. This 
refers to the need for fundamental changes in science, mathematics, and 
technological literacy by stimulating reforms in school policy, 
financing and management, as well as reforms in course conduct and 
content.
    USRA strives to complement the systemic reforms being undertaken in 
the U.S. by enabling students and teachers to share in our nation's 
space research experiences. We have considerable success in bringing 
students into the NASA research environment, and in bringing NASA 
research into the classroom, either in the form of properly configured 
teaching materials or by coordinating the in-person/hands-on presence 
of NASA engineers and researchers.
    As an example of our efforts to connect students and teachers with 
leading space research initiatives, let me briefly describe one of our 
major activities and how USRA relies on its institutes and programs to 
take the lead on educational initiatives related to space science 
disciplines. USRA is the prime contractor to NASA for the development 
and operation of the Stratospheric Observatory for Infrared Astronomy 
(SOFIA). Managed out of California at NASA's Dryden and Ames Research 
Centers, SOFIA is a well-known world-class astronomical observatory, 
with a 2.5-meter telescope designed to provide infrared and sub-
millimeter scientific observations into the next century.
    SOFIA provides a unique educational resource that will unite 
teachers and practicing scientists in meaningful, long-term 
relationships. As a modified Boeing 747, SOFIA is designed with a 
special educator seating section that will enable thousands of teachers 
to fly aboard the observatory during its lifetime, and directly 
contribute to the recommendation of the Rising Above the Gathering 
Storm report to ``train ten thousand teachers, ten million minds.'' 
SOFIA is the only major ground- or space-based observatory designed 
from the start, both physically and administratively, to foster 
partnerships between educators and scientists in a research 
environment. Over 600 teachers and other education professionals, such 
as museum and planetarium workers involved in science education, have 
already indicated their interest in the SOFIA educational program.
The Need for Reinvestments in University Research Programs
    America's leadership in science and technology markets has helped 
secure the standards of living we have enjoyed for decades. Currently, 
the U.S. employs close to one-third of the world's researchers in 
science and engineering, and accounts for 40% of all R&D spending, 
though it possesses only 5% of the world population. Yet at the dawn of 
the 21st century, our nation faces an unprecedented level of global 
competition in emerging science and technology markets. These technical 
and scientific achievements are directly linked to the unparalleled 
quality of American universities since World War II. There is 
competition from universities in China, India and other countries in 
both research and investments in infrastructure. We cannot afford to 
lose this edge, and investments in research are an important component 
of this race. We commend your support of the Congressional Innovation 
Agenda and the President's American Competitiveness Initiative which 
increase federal investments in research and development (R&D) at our 
universities and serve as the key platforms for maintaining our 
nation's leadership in the technology and science areas.
    While our universities still lead the rest of the world in both 
undergraduate and graduate research and education, they face serious 
challenges. One of these challenges is the need to strengthen the 
research funding that has been essential in attracting the best and 
brightest students to the engineering and scientific fields. Since the 
early 1990s, federal and state funding has been flat or declining in 
real terms.\6\ This has challenged the universities in continuing to 
develop a workforce that will ensure our nation's ability to compete 
effectively in an increasingly global and technologically-oriented 
economy.
    One key recommendation from the 2007 National Research Council 
report entitled ``Building a Better NASA Workforce: Meeting the 
Workforce Needs for the National Vision for Space Exploration'' is that 
NASA should make workforce-related programs, such as the Graduate 
Student Researchers Program and co-op programs, a high priority within 
its education budget. NASA should also invest in the future aerospace 
workforce by partnering with universities to provide hands-on 
experiences for students and opportunities for fundamental scientific 
and engineering research specific to NASA's needs. These experiences 
should include significant numbers of opportunities to participate in 
all aspects of suborbital and Explorer-class flight programs and in 
research fellowships and co-op student assignments. USRA urges Congress 
to provide increased federal funding for critical hands-on training 
opportunities at the university level.
    In closing, I would like to commend the Subcommittee for its 
commitment to our universities and for support of funding higher 
education programs. In addition to other government agencies, NASA 
continues to play an important role in educating our nation's technical 
workforce. Much of the exciting space research conducted at our member 
universities is funded by Research and Education programs from NASA, 
and we appreciate your continued support of these programs.
    We at USRA believe that strengthening our higher education 
institutions is essential to our national security and to maintaining 
our competitive edge in the global marketplace.
    Thank you for this opportunity to appear before you today. I look 
forward to working with you and I would be happy to answer any 
questions.
                              attachments

 USRA White Paper on Educating the Next Generation of Space Scientists 
                             and Engineers

    ``Our policymakers need to acknowledge that the nation's apathy 
toward developing a scientifically and technologically trained 
workforce is the equivalent of intellectual and industrial disarmament 
and is a direct threat to our nation's capability to continue as a 
world leader.'' (The Report of the Commission on the Future of the U.S. 
Aerospace Industry, November 2002)
    ``At present, there are insufficient methods for students to 
acquire hands-on experience in the scientific and technical disciplines 
necessary for space commerce and exploration.'' (Commission on 
Implementation of United States Space Exploration Policy (the Aldridge 
Report), June 2004)
    There is a significant deficit of scientists and engineers in the 
United States with meaningful hands-on experience with space 
instrumentation and space systems, which is jeopardizing the ability of 
the nation to maintain a vigorous presence in space into the future, 
regardless of whether we are in space for reasons of commerce, 
exploration, national defense, or scientific research. This deficit 
leads not only to a loss of capability, but also to escalating costs of 
many of the space systems vital to the nation's security and industrial 
competitiveness.
    Space scientists and engineers are trained at universities, 
particularly in the science and engineering graduate programs of those 
research universities active in space research. To attract good 
students into these fields requires sufficient funding for graduate 
stipends from either research projects or graduate fellowships, and 
projects or research opportunities that excite students so that they 
choose space research over other possible areas. These projects or 
research opportunities must also provide the students with the range of 
experiences they need to become fully trained scientists and engineers.
    The scientists and engineers who learned their trades during the 
first decades of the space age have reached or are nearing retirement. 
These were exciting years for a young person to enter space research, 
and space attracted many of the best young scientists and engineers. 
These years were marked by frequent launches of smaller missions many 
of which were led by university-based teams that included graduate 
students. These students got plenty of hands-on experience, and learned 
first hand the difficulties of designing and constructing an experiment 
or engineering system that would operate reliably in space. Many 
students also learned from designing and building experiments for 
smaller, suborbital flights on rockets or balloons, or by observing 
with an airborne telescope.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The chart shows that the number of these opportunities peaked in 
1968, at the height of the Apollo program. Since then the number of 
student opportunities provided by spacecraft missions, rocket and 
balloon fights and airborne observatory sorties has diminished from 
over 250 per year to consistently less than 50 per year. Most graduate 
students now never have an opportunity to do hands-on science. Instead 
the vast majority of science PhD students analyze data obtained from 
instruments they have never seen and thus have only a vague idea of how 
they work or how they might malfunction. They certainly don't learn the 
important skills needed to conceive of, and to help design and 
construct a space experiment.
    The chart hides another phenomenon. As space missions have, 
necessarily, become more complex, they also take longer to design and 
construct. The increasing complexity means that fewer universities have 
the resources and capabilities of managing the complexity, so 
increasingly missions are being run by non-academic laboratories and 
research centers. The mission time scale is now significantly longer 
than a typical graduate student remains in school. Both of these 
effects significantly decrease the likelihood of graduate student 
involvement, exacerbating the problem.
    This is a national problem. It affects not only space science, but 
also human space exploration, global climate prediction, commercial 
ventures in space, and national security uses of space. All these 
enterprises require space engineers able to design and construct 
reliable space hardware, and space scientists who understand the space 
environment and the rigors of conducting any activity, robotic or 
human, in space.
What needs to be done?
    These critical needs are addressed by a proposed hands-on, rapid 
cycle flight program of moderate risk that focuses on inexpensive 
system development for suborbital and orbital applications. This 
program should provide multiple flight opportunities involving graduate 
and undergraduate students from science and engineering disciplines, 
and should provide the excitement of discovery to attract those who 
will become leaders of the future U.S. space enterprise. The program 
should permit a four-fold increase of hands-on experiences over present 
levels to return to the peak levels of the 60's and 70's. The proposed 
level of activity should allow an average of two launches per month or 
more.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                endnotes
    \1\ USRA was incorporated in 1969 in the District of Columbia as a 
private, nonprofit corporation under the auspices of the National 
Academy of Sciences (NAS). Institutional membership in the Association 
has grown from 48 colleges and universities when it was founded, to the 
current 101 institutions. All member institutions have graduate 
programs in space sciences or technology.
    \2\ Committee on Prospering in the Global Economy of the 21st 
Century: An Agenda for American Science and Technology, Norman R. 
Augustine (Chair).
    \3\ John W. Douglass, AIA Update June/July 2007, Volume 11, No. 8.
    \4\ Division of Research, Evaluation, and Communication, 
Directorate For Education and Human Resources, Indicators of Science 
and Mathematics Education 1995 & The Learning Curve: What We are 
Discovering about US Science and Mathematics Education. Edited by Larry 
E. Suter. Arlington, VA & Washington, DC: National Science Foundation, 
1996 (NSF 96-52 & 53).
    \5\ The Learning Curve: What We are Discovering about US Science 
and Mathematics Education. Edited by Larry E. Suter. Arlington, VA & 
Washington, DC: National Science Foundation, 1996 (NSF 96-53), p 2.
    \6\ Harnessing Science and Technology for America's Economic 
Future: National and Regional Priorities, the National Academies, 
(1999).
                                 ______
                                 
    Chairman Hinojosa. Thank you very much.
    Dr. Drummond.

  STATEMENT OF DR. MARSHALL DRUMMOND, CHANCELLOR, LOS ANGELES 
                   COMMUNITY COLLEGE DISTRICT

    Dr. Drummond. Chairman Hinojosa, honorable members, it's a 
genuine pleasure to be here today.
    I want to thank you specifically, and the distinguished 
members of the subcommittee, for the leadership each of you 
have provided the education community. It demonstrates your 
understanding of the complex issues confronting America and its 
role in a free world.
    I especially want to thank you for the recent work you've 
completed to increase Pell grants and to remove tuition 
sensitivity, which is very, very important to Californians.
    I am the chancellor of the Los Angeles Community College 
District. The district has nine colleges throughout the Los 
Angeles area, and is the largest community college district in 
the Nation, educating approximately 190,000 students a year.
    Most of our students come from disadvantaged backgrounds 
and what most consider ``underserved'' populations. Eighty 
percent of our students are minorities and 40 percent live 
below the poverty line. All of our nine colleges are HSIs. A 
third of our students attend college to obtain vocational 
technical training and jobs, and another third transfer on to 
colleges and universities to obtain bachelors degrees, and on.
    California community colleges are a major pipeline to 
California's four year colleges. Two-thirds of the California 
State University graduates and one-third of the University of 
California graduates start at a community college.
    I'm here today representing the Los Angeles Community 
College District. However, I have a statewide perspective, 
having just served as chancellor of the 109 campus California 
community college system.
    There are many outstanding programs and innovative efforts 
underway throughout the state to improve and expand the quality 
of science, technology, engineering and math education.
    Sadly, insufficient numbers of public school teachers are 
credentialed in these disciplines and the pipeline to replace a 
cadre of seasoned and about-to-retire teachers isn't sufficient 
to meet the challenges of a prepared workforce.
    California community colleges represent one of the largest 
potential recruitment tools for future math and science 
teachers. Nearly 50 percent of all the CSU teacher candidates 
in math and science began at California's community colleges. 
California community colleges are attempting to address the 
STEM teaching crisis by partnering with the UC's and Cal 
State's with a variety of innovative programs to develop 
highly-qualified teachers. A few notable programs include the 
Teacher Preparation Pipeline Project, the SCU Mathematics and 
Science teacher Initiative, and MESA, Mathematics Engineering 
Science Achievement.
    Another issue we face in the Los Angeles community colleges 
is that approximately 85 percent of incoming students require 
some form of remediation in math. This is not an indictment on 
public schools. However, it is a picture of the challenge 
ahead. The sooner innovation strategies can be implemented in 
the public schools and in partnership with the community 
colleges, the more likely the pipeline of qualified candidates 
for college-level math, science, and the related disciplines 
will increase.
    Our campuses reach out to the K-12 schools. Specifically, I 
will speak to the Jaime Escalante program at East Los Angeles 
College, that uses highly-effective, innovative teaching styles 
to motivate inner-city youth and develop their math aptitudes.
    Many of you may be familiar with the portrayal of Mr. 
Escalante in the motion picture Stand and Deliver. Escalante 
students' chances for success in college are greatly improved 
by the program.
    Another noteworthy STEM project recently launched, is the 
Los Angeles Infrastructure Academy at Los Angeles Trade 
Technical College, just announced yesterday.
    It was created in partnership with the Los Angeles 
community colleges, the mayor's office, the Department of Water 
and Power, the Los Angeles Unified School District, and Cal 
State Los Angeles and College of Engineering.
    This innovative program for job preparation will train high 
school students in skills and trades and provide multiple 
pathways to further education and jobs.
    This program hopefully addresses the 50 percent high school 
dropout rate, grades 9 through 12 in Los Angeles, by relating 
education to specific job skills, and also will help stem the 
need for trained labor for our public utilities.
    We have over 700 openings, at the present time, in our 
Department of Water and Power.
    As I mentioned, we spend considerable resources to 
remediate students in math, yet we've had great success. I am 
pleased to inform you that the math at Los Angeles City College 
ranked number one in national competition this year, and East 
Los Angeles College was right behind.
    It's also interesting that a team of students from the 
Santee Learning Complex, one of the lowest-performing schools 
in Los Angeles, combined with students from Los Angeles Trade 
Tech, working with faculty from Trade Tech and Cal State LA, 
came in second in the world in Las Vegas, last year, in the 
fighting robot competition.
    This clearly demonstrates to me that we have no shortage of 
talent in our inner city youth. We have no shortage of 
willingness and good ideas. What we do have is a real shortage 
of qualified teachers and we have a shortage of resources.
    The STEM program was designed to create partnerships of 
excellence, and I urge you not only to fund the program, but to 
include in legislative language a provision that community 
colleges should be included in program partnerships for funding 
consideration as we play an integral training role in these 
fields.
    On behalf of Los Angeles Community College District, I look 
forward to working with you and your colleagues to shape 
meaningful legislation, legislation no less fundamental to 
America's future than the national defense program which 
prepared our last generation of engineers, who, as we know, 
created a world-class space program and benefited a variety of 
U.S. industries.
    I thank you very much for this opportunity and I welcome 
any questions you may have.
    [The statement of Dr. Drummond follows:]

  Prepared Statement of Marshall E. Drummond, Chancellor, Los Angeles 
                       Community College District

    Mr. Chairman, it's a genuine pleasure to be here today. I want to 
thank you and the distinguished members of the subcommittee for the 
leadership each of you has provided the education community. It 
demonstrates your understanding of the complex issues confronting 
America and its role in a free world. I especially want to thank you 
for the recent work you've completed to increase PELL grants which is 
particularly important to Californians and for correcting the student 
loan program making it less expensive for students to borrow (though we 
all wish students would not be forced to borrow funds to further their 
educations).
    I am the Chancellor of the Los Angeles Community College District. 
The district has nine colleges throughout the Los Angeles area and is 
largest community college district in the nation. We educate over 
187,000 students each year. Many of our students come from 
disadvantaged backgrounds and are what most consider the 
``underserved'' population. Eighty percent of our students are 
minorities and forty percent live below the poverty line. A third of 
our students attend our colleges to obtain job skills through career 
technical/vocational training and another third transfer on to colleges 
and universities to obtain a bachelors degree.
    California Community Colleges are a major pipeline to California's 
public four-year colleges. Two-thirds of California State University 
graduates and one-third of University of California graduates start at 
a community college.
    I am here today representing the Los Angeles Community College 
District; however, I have a statewide perspective having just served as 
Chancellor for the 109-campus California Community College System. 
There are many outstanding programs and innovative efforts underway 
throughout the state to improve and expand the quality of science, 
technology, engineering and math education as part of work force 
development but there is much more to do.
    I applaud the congressional efforts to increase support for these 
disciplines in legislation you refer to as STEM. Each of us is aware 
that the economy is changing and for California to retain its economic 
competitiveness, job creation requires a work force equipped with 
skills in science, the technologies, engineering concepts, and a solid 
foundation in mathematics.
    Sadly, insufficient numbers of public school teachers are 
credentialed in these disciplines and the pipeline to replace a cadre 
of seasoned and about to retire teachers is insufficient to meet the 
challenges of a prepared work force. California Community Colleges 
represent one of the largest potential recruitment pools for future 
math and science teachers in the state. Nearly half of all CSU teacher 
candidates in math and science begin at community colleges.
    California Community Colleges are attempting to address the STEM 
teaching crisis by partnering with the UC's and Cal State's with a 
variety of innovative programs to develop highly qualified teachers. A 
few notable programs include the Teacher Preparation Pipeline Project, 
the CSU Mathematics and Science Teacher Initiative (MSTI), and MESA--
Mathematics Engineering Science Achievement.
    Another issue we face in the Los Angeles Community College District 
is that approximately eighty-five percent of incoming students require 
some form of remediation in math. This is not an indictment on public 
schools. Rather, it's a picture of the challenge ahead. The sooner 
intervention strategies can be implemented, in the public schools and 
in partnership with the community colleges, the more likely the 
pipeline of qualified candidates for college-level math, science, and 
the related disciplines will increase.
    Our campuses reach out to K-12 schools. Specifically, I shall speak 
to the Jaime Escalante program at East Los Angeles College that uses 
highly effective, innovative teaching styles to motivate inner-city 
youth and develop their math aptitudes. Most of you may be familiar 
with the portrayal of Mr. Escalante in the motion picture titled Stand 
and Deliver. Escalante students' chances for success in college are 
greatly improved by completing the program as they are better prepared 
for the challenges ahead of them in math, science, engineering, and 
technology (STEM).
    Another noteworthy STEM related program recently launched is the 
Los Angeles Infrastructure Academy at Trade Technical College. It was 
created in partnership with LACCD, the Los Angeles Mayor's Office, the 
Department of Water and Power (DWP), Los Angeles Unified School 
District (LAUSD) and Cal State LA College of Engineering. This 
innovative job preparation program is designed to train high school 
juniors and seniors in the skilled trades and engineering. Not only 
does this program address the 50% high school drop out rate because 
students see how education relates to good paying jobs but also 
attempts to diminish the shortage of trained labor for public 
utilities.
    As I mentioned, we spend considerable resources to remediate 
students in math and have had great successes. I am pleased to inform 
you that the Math club at Los Angeles City College ranked number one in 
national competition this year with East LA College right behind. There 
are countless other examples of successes but time limits what I can 
showcase today.
    We ask that you support and fund programs aimed to strengthen the 
likelihood of student success in education. This can come in the form 
of Title V grants aimed at streamlined basic skills, Extended 
Opportunity Program and Services (EOP&S) type programs specifically 
aimed at STEM potentials, and scholarship or loan forgiveness programs 
for STEM participants.
    The STEM program is designed to create partnerships of excellence 
and I urge you to not only fund the program, but include in legislative 
language, a provision that community colleges must be included in 
program partnerships for funding consideration as we play an integral 
training role in these fields.
    Nowhere are the needs more pressing than in the broad array of 
health care services, the entertainment industry where technology is 
advancing at breakneck speed, and in the need to replace retiring 
classroom teachers. Academies which focus on science, technology, 
engineering, and mathematics can provide the model from which work 
force needs can begin to be addressed. We cannot deny the nation's 
security and international competitiveness are predicated on the 
quality and sufficient numbers of graduates in these disciplines. 
Again, I encourage you to further support STEM educational projects and 
other related funding opportunities.
    As you move forward with this legislation, I am confident that you 
are mindful of California's and Los Angeles' changing economy and work 
force needs. Whether it's advanced manufacturing, the digital world, 
the music and movie industry, teaching, financial services, energy and 
its related challenges to become independent, hospitality, or bio-
technology, each field requires individuals who can enter the work 
force prepared to move the industry forward internationally.
    On behalf of the Los Angeles City College District, I look forward 
to working with you and your colleagues to shape meaningful 
legislation: legislation no less fundamental to America's future than 
the National Defense program which prepared our last generation of 
engineers who, as we know, created a world class space program and 
benefited a variety of U.S. industries.
    Thanks you for this opportunity. I welcome any questions you might 
have.
                                 ______
                                 
    Chairman Hinojosa. Thank you, Dr. Drummond.
    Todd.

 STATEMENT OF DR. TODD ULLAH, DIRECTOR, DEPARTMENT OF SCIENCE, 
              LOS ANGELES UNIFIED SCHOOL DISTRICT

    Dr. Ullah. Good morning, Mr. Chairman, members of the 
honorable committee, and panelists, for the insights they have 
shown so far in terms of highlighting the need for STEM 
education here in California and in the Nation.
    I welcome the opportunity to be here today on behalf of the 
superintendent of schools, David L. Brewer III, and our chief 
instructional officer of Secondary Education, Mr. Robert 
Collins, and the over 750,000 kids engaged in science and 
mathematics education each day in our district.
    This committee's work is of vital interest to the children 
and families of urban and rural schools throughout the Nation. 
It is our belief that STEM education is critical to the 
national security and economic prosperity of the Nation, here, 
in the 21st Century.
    Science and technology will be a vital part of every job 
and occupation in this century, for jobs that exist and jobs 
that are new to us in this century, and in the future.
    The children occupying seats in the Nation's largest cities 
and schools need access and equality of opportunity regarding 
education in general, and STEM education in particular.
    Public education must succeed in providing a rigorous, 
culturally relevant, comprehensive standards based education 
for all students in our schools.
    I would also emphasize this point by indicating that we 
must close the achievement gap by providing sound instructional 
support, and again, culturally relevant strategies to the 
Nation's science and mathematics teachers in explicit ways to 
help them provide the rigorous and relevant education for 
learners we find in our schools today.
    Our district is reaching out to make this happen every day 
in our schools through five guiding principles. Decision making 
based on data, research and analysis, professional development 
for all employees; promoting innovation and change within the 
district; engaging partners and partnering with the community; 
and ensuring physical and emotional safety of students on 
campuses.
    This supports our theory of action of standards-based 
instructional guides, diagnostic periodic assessments given 
through the year, and intensive ongoing professional 
development for math and science teachers.
    In this quest, we focus on building leadership capacity in 
science and math, vertically within schools, and horizontally 
among schools. We fully believe that developing leadership with 
a consistent direction within a constantly changing educational 
landscape is critically important.
    So we focus our efforts on equity and access, and 
instruction in our schools. This we believe will help our 
district to go to scale in implementing incremental but 
sustained changes in teacher practices.
    We believe that in order for the Nation's districts to 
improve public instruction and heed the recommendations and 
alarms of previous reports by this committee and other eminent 
bodies, worldwide, a series of key supports and risks must take 
place across the Nation.
    I've outlined, in detail, my testimony for these points to 
follow, but I want to highlight a few things.
    One. Focus on instruction. Our district is doing this with 
a vengeance, in terms of key initiatives in mathematics and 
science education. We have employed hundreds of coaches and 
over 1200 science lead teachers are in our schools, helping to 
move the initiative, and bringing science awareness to our 
students each and every day.
    One thing critical to science instruction, I must say, is 
adding science to the adequate yearly progress in NCLB, so that 
it is tested, monitored and given the focus and attention it 
needs nationally.
    Two. Attend to recruitment, retention, and the morale of 
new and experienced teachers. This is critical as we begin this 
work at finding high quality teachers in the United States.
    Third. Implementing elementary and middle bridge programs 
in science and mathematics to help students with misconceptions 
that they have in science and math, and reaching out to 
parents.
    Fourth. Continue building bridges with universities, 
businesses, the city, community, museum partnerships that 
support items one through three.
    In this area, we have been particularly happy and pleased 
with our work in partnership with CSU and the community 
colleges in our area, to bring awareness and collaboration 
between our faculty members and our students.
    In closing, I would like to say that this committee, and 
others like the National Science Board, should seek out, 
identify and implement effective policies that lead to 
increased student performance in science and mathematics. 
Effective policies will articulate best practices and 
strategies for students doing science.
    Comprehensive plans for recruiting and retaining highly-
qualified teachers of science and mathematics; high quality 
professional development; appropriate time and quality 
experiences for pre-K through grade 5 science instruction to 
meet great standards. Quality science experiences for middle 
school and high school students, that include field work, 
laboratory investigations, and linking to their cultures.
    A blend of science experiences again that target and engage 
pre-K through 12th grade students with hands-on activities, lab 
investigations, field work, etcetera.
    Guidelines to increase the diversity of student population 
in advanced science courses. Particularly in high school, we 
see a leak in our pipeline to colleges and universities.
    We have to provide policies that look at equipment, 
materials, supplies, and technology necessary to support a 
blend of science experiences for pre-K through grade 12 
students.
    Appropriate classroom activities and laboratory facilities 
needed to maintain high quality instruction. And finally, 
adequate funding to support and sustain high quality science.
    It has been my pleasure today to report and testify today 
to this committee, and I will be happy to take any questions.
    [The statement of Dr. Ullah follows:]

   Prepared Statement of Todd Ullah, Ed.D., Director of Science, Los 
                    Angeles Unified School District

    I welcome the opportunity to be here today on behalf of our 
Superintendent of Schools David L. Brewer III and our Chief 
Instructional Office for Secondary Education Mr. Robert Collins and the 
over 750,000 kids engaged in science and mathematics education each day 
in our district. This Committee's work is of vital interest to the 
children and families of urban and rural schools throughout the nation. 
It is our belief that STEM education is critical to the national 
security and economic prosperity of the nation here in the 21st 
century. Science and technology will be a vital part of every job and 
occupation in this century for jobs that exist and those that will be 
new to us in the future. The children occupying seats in the nation 
largest cities and schools need access and equality of opportunity 
regarding education in general and STEM education in particular. Public 
education must succeed in providing a rigorous, culturally relevant, 
comprehensive, standards based education for all students in our 
schools. I would also emphasize this point by indicating that we must 
close the achievement gap by providing sound instructional support and 
culturally relevant strategies to the nation's science and mathematic 
teachers in explicit ways to help them provide this rigorous and 
relevant education for learners we find in our schools today. Our 
district is reaching out to make this happen every day in our schools 
through our five guiding principles (decision-making based on data, 
research and analysis; professional development for all employees; 
promoting innovation and change within the District; engaging parents 
and partnering with the community; and ensuring the physical and 
emotional safety of students on campus) and a theory of action of 
standards-based instructional guides, diagnostic periodic assessments, 
and intensive ongoing professional development for math and science 
teachers. In this quest, we focus on building leadership capacity in 
science and math vertically within schools and horizontally among 
schools. We fully believe that developing leadership with a consistent 
direction within a constantly changing educational landscape is 
important. So we focus our efforts on equity and access and instruction 
in our schools. This we believe will help our district go to scale in 
implementing incremental but sustained changes in teacher practices. We 
believe that in order for the California districts to improve public 
instruction and heed the recommendations and alarms of previous reports 
by this committee and other eminent bodies worldwide a series of key 
supports and risks must take place in the nation:
    1. Focus on Instruction;
    <bullet> Make science an assessment component of the No Child Left 
Behind Adequate Yearly Progress for schools and districts to bulk up 
the accountability to measure science progress in our schools
    <bullet> Challenge students with high expectations and give them 
the support to reach their potentials.
    <bullet> Teach and support science at the elementary level a key to 
literacy and numeracy.
    <bullet> Make abstract concepts in science and instruction concrete 
by showing teachers, administrators, and the public what it looks like 
in practice.
    <bullet> Provide content and pedagogical professional development 
that focuses on inquiry based standards driven instruction that honored 
student prior cultural knowledge and patterns of home discourse based 
on language and other factors.
    <bullet> Continue to use system wide as well as classroom based 
diagnostic periodic assessments and aim intervention at grade/credit 
recovery and algebra readiness. Point classroom extensions toward 
apprenticeship experience and connect abstract concepts in science to 
real world experiences and realia student are familiar with and that 
are engaging while strongly tied to schooling.
    <bullet> Take responsibility for the public infrastructure (science 
facilities, professional development centers, intervention programs) 
that will sustain the kind of support necessary to assure that schools 
have access to curriculum and professional development;
    <bullet> Coordinate lesson plans and instructional unit across 
schools and grades.
    <bullet> Fund parent participation at all grade levels with 
innovative programs.
    2. Attend to recruitment, retention, and the moral of new and 
experienced teachers;
    <bullet> Develop and support Legislation that consistently and 
coherently support science teacher professional development similar to 
the State Reading and Mathematics initiatives. As an example, Senate 
Bill 960 by Senator Elaine Alquist (D-Santa Clara) has been proposed to 
add science to the existing high-quality professional development 
program for reading and math. The bill also requires the State 
Superintendent to convene an advisory committee to ensure the quality 
and effectiveness of the science professional development training. We 
urge the committee to support such legislation.
    <bullet> Development of policies and procedures that support 
physical infrastructure that support rigorous, inquiry driven, 
standards based instruction. The number one reason science teachers 
leave before 5 years is inadequate science laboratories and tools.
    <bullet> Resolve the complex and often challenging credential 
requirements as part of the highly qualified teacher component of No 
Child Left Behind
    <bullet> Treat teachers as the trained professional educational 
leaders they are and seek input and collaboration on designing 
curriculum and pay them well. Remove the legacy culture that regards 
teaching as low-skill work, of a profession that has failed to develop 
a practice and to control entry based on the mastery of that practice.
    <bullet> Focus on building leadership structures and internship 
opportunities that build capacity through collaboration and 
revitalization.
    <bullet> Create greater awareness of teaching mathematics and 
science teaching by honoring teachers publicly.
    <bullet> Support the notion and recognize efforts that engage in 
continuous improvement by increasing R & D. there is an R&D component 
to sustaining development and support--studies of the effectiveness of 
various support models, development of new content and pedagogy, etc.--
requires public investment (Elmore, 2006).
    3. Elementary and Middle Bridge programs in science and 
mathematics.
    <bullet> Use data to identify student misconceptions in science and 
mathematics and build supports around those specific concepts, attend 
to them using technology and other engaging strategies to plug gaps in 
our pipeline to high school and college.
    <bullet> Study high poverty low performing districts that have 
transformed into high poverty high performing districts and analyze the 
lessons learned. El Centro School District has made claims and provides 
evidence that could be useful in making decisions to support science 
instruction.
    <bullet> Public investment in summer bridge and afternoon programs 
for 5th and 8th graders that attend to both intervention and enrichment 
for students and parents.
    <bullet> Fund parent programs that allow access and engagement with 
teachers and district leadership.
    <bullet> Follow-up with high school internships and 
apprenticeships, particularly for high poverty, low performing campuses 
and communities in California.
    4. Build University, Business, City, Community, and Museum 
partnerships that support 1-3
    <bullet> Support partnership structures with institutes of higher 
education that focus on changing the culture of BOTH institutions so 
that STEM faculty see the value and expertise of leading mathematics 
and science teachers in our district nationwide. They will begin to 
refer more of there student toward careers in education and also gain a 
better understanding of what public school students need to know and be 
able to do.
    <bullet> Continue to fund science partnership grants and 
opportunities available to both higher education and K-12 institutions 
to spur innovation.
    <bullet> Foster and support 2-year and 4-year college articulation 
that helps structure alliances and collaboration in support of K-12 
educational objectives.
    <bullet> Support partnerships between city governments, local 
educational agencies, universities, and State and National Parks and 
Recreation programs to maximize the use of public lands and funds to 
advance scientific inquiry, student civic action, service learning, and 
parent involvement.
    As indicated in the Science Framework for the 2009 National 
Assessment of Educational Progress developed by WestEd and the Council 
of Chief State School Officers:
    * * * In the rapidly changing world of the 21st Century, science 
literacy is an essential goal for all of our nation's youth. Through 
science (and mathematics) education, children come to understand the 
world in which they live and learn to apply scientific principles in 
many facets of their lives. In addition, our country has an obligation 
to provide young people how choose to pursue careers in science, 
technology, (mathematics, and engineering) with a strong foundation for 
their post-secondary study and work experience. Our nation's future 
depends on scientifically literate citizens who can participate as 
informed members of society and a highly skilled scientific workforce-
both well prepared to address challenging issues at the local, 
national, and global level * * *
    Thank you this time to today in helping frame your work while 
adding our perspective from the Los Angeles Unified School District.
                                 ______
                                 
    Chairman Hinojosa. Thank you, Dr. Ullah.
    Now Dr. Hackwood.

STATEMENT OF DR. SUSAN HACKWOOD, EXECUTIVE DIRECTOR, CALIFORNIA 
               COUNCIL ON SCIENCE AND TECHNOLOGY

    Dr. Hackwood. Chairman Hinojosa, and members of the 
committee, thank you very much for giving me an opportunity to 
talk today about some issues of science and technology, and 
particularly science and math teacher preparation. I will be 
talking from pictures. I'm an engineer, so I need pictures. You 
should have a copy in front of you, what I am talking from, as 
well as a written statement.
    First of all, it was mentioned, what CCST is. We are the 
state equivalent of the National Research Council, or the 
national academies. We represent the science and technology 
community to the state. We are supported by all the major 
academic institutions and the major federal laboratories in the 
state, and we work on all aspects of science and technology. 
Intellectual property, nanotech, biotech, all the emerging 
things that are affecting the state.
    And I would say, without exception, ever one of our members 
would say that STEM education is the top on their list of 
important things to tackle. We also have a group of science and 
math teachers, because listening to what teachers say and so is 
very important in influencing policy. So we have a group of 
practicing science and math teachers that help us in all 
aspects of the work that we do.
    Over the last year, or so, we have had an opportunity to 
take the report, Rising Above The Gathering Storm, which I am 
sure you are familiar with. Under the request of Governor 
Schwarzenegger, we produced a set of recommendations that are 
California-specific, and this was based on input directly from 
most of our industry base in the state, and a large number of 
CEOs who were involved in doing this.
    And we also have a report that we did earlier on in this 
year, that is a critical path analysis of California's science 
and math teacher preparation system. This was a first real 
attempt at putting together the whole system, and the next 
picture shows this.
    This, I won't go into detail; it is not the LA freeway 
system. It is the decision making processes that a student will 
go through in deciding to become a practicing teacher in the 
classroom. And the major message I want to give to you from 
this is it is immensely complex, and knowing what causes people 
to go in and out of the system, the flows to and from the 
system, is really important in any policy making, and this 
report does this for California. It looks at the quantity and 
quality of people going through the system. Next one.
    Another message I want to give you is the size of the 
system. The system is complex. Everything you do within a 
system affects something up the pipe or down the pipe. But it 
is also a huge system. It is a system of 307,000 teachers, 
etcetera, and the number of science and math teachers is about 
40,000. So anything that we are talking about has to have 
economies of scale, scaleability, and the ability to be able to 
survive through different political systems and through time.
    Another thing that is really important is the overall 
percentage of teachers who are not qualified to teach in their 
subject area, who are teaching in the classroom, and that is 
exaggerated, the more you go into low-performing schools. 
Schools with the lowest APIs have the highest number of 
teachers who are not qualified to teach in their area.
    The next picture shows the trends in this direction is 
going to get worse because of the 2000 math and science 
teachers who leave the workforce in California every year. That 
is going to get worse. We have a retirement bubble coming up 
through the system and our conservative estimates are that over 
the next 10 years, we will need 33,200 math and science 
teachers.
    The efforts that the CSU system and the UC system have made 
over the last couple of years are absolutely laudable, and 
absolutely necessary. However, we point out that this has to be 
sustained, it has to be supported, and it has to continue in 
order to be able to meet the needs that we have.
    The next pie charts are simply to show the best estimate 
that we can do for the number of new hires, the new teachers 
going into the classroom. They are more underprepared than the 
teachers who are teaching in the classroom. So 54 percent of 
new science and teacher hires do not hold a full or preliminary 
credential. Next one.
    It shows 66 percent of math teachers. So we may be filling 
the classrooms but we are filling them with teachers who are 
not prepared to be able to teach what they are teaching in. So 
next one, please.
    So the key findings of our critical path analysis are that 
the teachers matter. We have a lack of a coherent system for 
measuring what is going on. We will not meet the current 
demand. We have attrition and retirement that have 
significantly affected the system.
    We need to look at alternative teacher preparation systems, 
professional development is critically important, and the 
preparation, particularly in science education in elementary 
school teachers, is where kids get turned on in the classroom, 
and that really needs to have attention focused on it.
    Last point. Community colleges are an extremely important 
player in this because we estimate that probably half of our 
science and math teachers come through community colleges.
    So thank you very much for your work, Mr. Chairman.
    [The statement of Dr. Hackwood follows:]

 Prepared Statement of Susan Hackwood, Executive Director, California 
                   Council on Science and Technology

    Chairman Hinojosa and members of the Sub-Committee, on behalf of 
the California Council on Science and Technology I would like to 
express my appreciation for the opportunity to discuss our analysis of 
the status of science and mathematics teacher preparation in 
California. California's economy depends heavily on its science and 
technology sectors, and it has become increasingly apparent just how 
much these sectors depend on science and mathematics education. This, 
in turn, depends to a great extent upon its science and mathematics 
teaching workforce. My comments today will focus on the findings of our 
March 2007 report, Critical Path Analysis of California's Science and 
Mathematics Teacher Preparation System, which was conducted in 
collaboration with the Center for the Future of Teaching and Learning. 
The report details the scope and scale of the challenges facing 
California's science and mathematics teaching workforce. These 
challenges are significant, but can, we believe, be successfully 
addressed given suitable focus, cooperation, and planning.
Background on CCST
    The California Council of Science and Technology (CCST) is a 
nonpartisan, impartial, not-for-profit corporation established in 1988 
by state legislation. It is designed to offer expert advice to the 
state and provide solutions to science and technology-related public 
policy issues. CCST is modeled in part on the National Research 
Council, and has developed a close working relationship with the 
National Academies. More than half of CCST's Members and Fellows are 
members of the National Academies, and several are Nobel Laureates. 
Since its creation, CCST has worked directly with the Governor's 
office, state and federal Legislators, and agencies to recommend 
policies that will maintain California's role as a leader in generating 
science and technology innovation and maintaining a vigorous economy.
    CCST's sustaining institutions are the University of California 
system, the California State University system, California Institute of 
Technology, Stanford University, University of Southern California, and 
the California Community Colleges, as well as its affiliate members, 
Lawrence Berkeley National Laboratory, Lawrence Livermore National 
Laboratory, Sandia/California National Laboratory, Stanford Linear 
Accelerator Center, and NASA's Jet Propulsion Laboratory and Ames 
Research Center. CCST also has strong connections to industry through 
its membership and through its actions to the executive and legislative 
branches of government.
    Recent projects have focused on STEM education, intellectual 
property, nanotechnology, biotechnology, transportation, energy, and 
climate change response.
    CCST also includes the California Teacher Advisory Council (Cal 
TAC), modeled after the Teacher Advisory Council, established in 2002 
by the National Academies. Cal TAC's goals are to disseminate public 
policy information from the state level to teachers, hold forums with 
members of the business community and provide feedback to and from the 
National Academies Teacher Advisory Council. Cal TAC members integrate 
their `wisdom of practice' and contribute a valuable perspective to the 
California Council on Science and Technology education research and 
projects, such as the Critical Path Analysis of Science and Math 
Teachers.
Science and mathematics education concerns in the Gathering Storm
    In the past several years, K-12 math and science education in the 
United States have been identified as an area of serious concern. The 
National Academies' report Rising Above the Gathering Storm (October 
2005) warned that the nation was in danger of permanently losing its 
status as the world's economic and high-tech leader unless significant 
steps were taken to improve the science, technology, engineering, and 
mathematics (STEM) education system. The Gathering Storm's 
recommendations, presented in a context for California, are:
    <bullet> Increase California's talent pool by vastly improving K-12 
science and mathematics education.
    <bullet> Ensure that California is the premier place in the world 
to innovate; invest in downstream activities such as manufacturing and 
marketing; and create high-paying jobs based on innovation.
    <bullet> Make California the most attractive setting in which to 
study and perform research so that we can develop, recruit, and retain 
the best and brightest students, scientists, and engineers from within 
the United States and throughout the world.
    <bullet> Sustain and strengthen California's commitment to long-
term basic research that has the potential to be transformational to 
maintain the flow of ideas that fuel the economy, provide security, and 
enhance the quality of life.
    CCST, at the Governor's request, convened four task forces chaired 
by corporate leaders to respond to these recommendations, and presented 
a list of ``actionable'' items with both short-term and long-term 
components to the Governor in December 2006. One of the four principal 
recommendations of the task forces was to drastically improve the 
recruitment, preparation, and retention of science and math teachers in 
California.
The Critical Path Analysis
    While the task forces identified the challenges, there was a great 
deal of information about the status of the current teacher preparation 
system that was simply not available. The March 2007 report Critical 
Path Analysis of California's Science and Mathematics Teacher 
Preparation System provided a more detailed analysis of the situation. 
The project was conducted in collaboration with the Center for the 
Future of Teaching and Learning, and followed on CCST's previous 
reports, the Critical Path Analysis of California's Science and 
Technology Education System and the California Report on the 
Environment for Science and Technology.
    To help frame our discussion of the system, we developed a 
schematic flow diagram to map pathways now available into the 
professional credentialed teacher workforce (the shaded diamond). It 
should be noted that while this figure is constructed roughly 
chronologically--that is, a potential teacher would move through the 
system from left to right--it is not strictly speaking a linear 
process, and many teacher begin teaching before they are fully 
prepared. In this diagram, the triangles are input points where 
different prospective teacher populations enter the teacher production 
system; the rectangles represent requirements that they must complete 
before advancing to the next stage; and the diamonds represent 
populations of teachers that are actually in the classroom.
    The system is the largest state education system in the United 
States, with over 6 million students and 307,000 teachers. Of these, 
roughly 22,500 teachers are teaching math and 17,500 teachers are 
teaching science (there is some overlap between these groups). Overall, 
the percentage of `underprepared' teachers in the classroom--those not 
holding a credential to teach their subject--constitute 6% of the 
teacher workforce. However, for high school science teachers, this 
number is 9%, and for high school math teachers, the number is 12%--
twice the overall average. And the numbers are much worse for novice 
teachers (those in their first or second years of teaching) and those 
teaching in schools with low API scores.
    Normally, an estimated 2,000 teachers leave the workforce each year 
for a variety of reasons. However, a third of the teaching workforce is 
over 50, indicating that a large ``bubble'' of retiring teachers will 
significantly increase the demand for new teachers in the coming years. 
We estimate that, over the next ten years, California will need to hire 
33,200 math and science teachers (20,000 due to normal attrition, 
13,200 due to retirement).
The scale of the problem: underprepared new hires
    As the next two figures indicate, a substantial proportion of 
science and mathematics teachers hired in 2004-05 were either interns 
(that is, full-time new teachers who are also earning their preliminary 
credentials) or were hired with an emergency permit. (Although the 
emergency permit no longer exists, districts retain the ability to fill 
classrooms with non-credentialed teachers where adequate supplies of 
credentialed teachers are not available.) In this figure, an estimated 
54% of science teachers hired did not have a clear or preliminary 
credential.
    The situation is even more serious for mathematics; here, an 
estimated 66% of new math teachers hired did not have a clear or 
preliminary credential.
    Teachers have an important, proactive role to play in ensuring the 
delivery of high-quality science and mathematics instruction in 
elementary and secondary schools that serves as the building block for 
success in those fields in higher education and in the workplace. It 
simply makes sense for the state to develop and support policies that 
prioritize high-quality science and mathematics education for all 
students, particularly as the state considers strategies to avoid a 
predicted decline in educational attainment.
Conclusions
    California is facing a critical challenge to produce enough fully 
prepared and effective science and mathematics teachers to meet the 
demand. Our analysis reveals the following:
    <bullet> In general, California lacks a coherent system to 
consistently produce fully prepared teachers, especially science and 
math teachers.
    <bullet> The state's current teacher preparation programs do not 
meet the current demand for fully prepared science and math teachers.
    <bullet> In the next decade, California will face a shortage of 
fully prepared science and math teachers due to attrition and 
retirement.
    <bullet> There is a strong trend toward alternative teacher 
preparation programs for prospective science and math teachers by some 
institutions.
    <bullet> California needs more high quality professional 
development for science and math teachers.
    <bullet> California needs to ensure that elementary school teachers 
are fully prepared to teach the science and math curriculum.
Recommendations
    CCST offered recommendations for educations leaders and 
policymakers at every level to help address the challenges identified 
in this report. For state government leaders, we recommend that they:
    <bullet> Support efforts to encourage teaching as a second career
    <bullet> Support professional development for science and math 
teachers
    <bullet> Establish a coherent system to recruit, prepare, assign 
and retain science and math teachers
    <bullet> Streamline pathway for students interested in teaching 
science and math between community colleges, CSU, and UC
    <bullet> Examine distribution of fully prepared science and math 
teachers
    For institutions of higher education, CCST recommends that they:
    <bullet> Examine teacher preparation programs to see how they can 
be expanded, and
    <bullet> Ensure that all elementary school teachers are prepared to 
teach science and math.
    We recommend that school districts:
    <bullet> Provide adequate training for all mentors,
    <bullet> Design and implement coordinated, coherent professional 
development programs throughout school districts, and
    <bullet> Develop incentive pay systems to attract teachers to high-
need schools.
    Industry, federal laboratories, and informal science learning 
centers should expand support for professional development of science 
and mathematics teachers.
The potential of the community college system
    Community colleges are a particularly important recruitment 
location for future science and mathematics teachers. A large number of 
students in teacher-preparation programs--approximately 38%--begin 
their undergraduate work in a community college. And we know that 
nearly 50% of STEM graduates from UC and CSU begin their postsecondary 
studies in community colleges. Both CSU and UC have made strides 
recently in smoothing articulation between their respective systems and 
the community colleges, but a great deal of unrealized potential 
remains.
    Some studies suggest that community colleges may benefit from 
offering fewer, rather than more, options to their students. The 
proliferation of programs and pathways may lead to `information 
overload', rather than an amelioration of the situation. A recent 
article in Issues in Science and Technology observed that ``Community 
colleges have shockingly low degree-completion rates. In fact, many 
students leave with no new qualifications: no degrees and often no 
credits. For students who get no degree, college provides little or no 
labor market benefit.'' A systematic implementation of more stringently 
planned and managed pathways to baccalaureate degrees, including those 
leading to teaching credentials, could facilitate successful transfer 
rates significantly.
Action since the release of the Critical Path Analysis
    There have been several actions this year in California meant to 
address the challenges identified in the Critical Path Analysis. Two 
bills put forth by Senator Jack Scott as the ``Math Science 
Initiative'' have been passed to make it easier for qualified 
professionals to enter the classroom: SB 112 exempts retired teachers 
who return to service from basic skills proficiency requirements and 
specifies that retired teachers do not need to participate in induction 
programs for new teachers; SB 859 authorizes the Commission on Teacher 
Credentialing to issue or renew visiting faculty permits authorizing 
instruction in math or science to individuals who satisfy specified 
requirements, including having a minimum of 6 years of full-time 
teaching experience in an accredited California community college. 
Other legislation passed include bills to establish a Teacher Cadet 
Program to recruit new teachers and to extend the Subject Matter 
Projects for teacher professional development. These are an encouraging 
beginning, but more far-reaching sustainable solutions at the right 
scale if impact will need to be found and implemented if California is 
to meet its projected need for well-prepared science and mathematics 
teachers.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
    Chairman Hinojosa. Thank you, Dr. Hackwood.
    Each and every one of you gave excellent presentations. You 
certainly have stimulated my mind in what needs to be done as 
we approach the reauthorization of No Child Left Behind, and 
then, following that, a reauthorization of higher education.
    I have been talking to the Chairman of the full committee 
which is Education and Labor. That is our good friend and 
colleague, George Miller, from California.
    And it seems that the timeline that we have agreed to is 
that we should be able to finish all of our work, and pass the 
No Child Left Behind reauthorization, if not the last week of 
September, it would be the early part of October, following 
then the higher ed, to be finished by the first week of 
November, and I can see that we have lots of work.
    You all have some very good recommendations that have been 
made, that we should try to incorporate in some form of 
amendments, so that we can have even better reauthorizations 
than we have, which are the working documents for No Child Left 
Behind, known as the Miller and McKeon working document, that I 
hope you all have received. It is on the Internet.
    The one on higher ed should probably be available by the 
end of September.
    Also, I want to ask unanimous consent that my statement, my 
opening statement be made part of the record. It is about seven 
minutes long, and I didn't want to take up those seven minutes 
because I wanted to give you the opportunity to speak, and 
those of us here, Members of Congress, to ask questions.
    If there is no objection, then that will be done. My 
opening statement will be a part of the record.
    Before I start with questions, and I am going to take five 
minutes, I wanted to say that I have participated in many field 
hearings as a member of the minority, and I have traveled, not 
only here in our country, but abroad. Recently, two years ago, 
I was invited by then-Chairman of Higher Education Committee 
McKeon to go to China, and to visit with seven universities 
that are producing the largest percentage of their engineers, 
scientists, mathematicians, and researchers.
    And I want to share with you that what we have here in 
these presentations is very much like what is being done in 
China now. It is the implementation, and if the Federal 
Government could increase its investment in this area, I think 
that we could probably move a lost faster. It is unfortunate 
that we are still at war with Iraq, where we are spending $10 
billion a month, and there is no light at the end of the tunnel 
as to when we will be able to redeploy our troops, and 
hopefully change our mission in Iraq.
    But it is certainly one of the most important issues that 
we are debating in Congress and I am sure that you all are 
keeping up with the news, so that you would know what is 
happening on that issue.
    But getting back to our hearing, it is important that 
states and Federal Governments increase their investment in 
education, and the State of Texas is a little smaller than 
California, but I would say that we are as interested in making 
improvements in math and science, and all of these fields that 
we are talking about.
    And in listening to our last presenter, you reminded me of 
one of my five children. I have four daughters and one son. 
Three have graduated from the University of Texas, and the 
other two are young, 11 and 13. The youngest one, Karin, called 
last night, and let me know that she had become one of the 
three finalists of 22 students running for student council 
president. So there is supposed to be some kind of a run-off 
today.
    But it reminded me of Karin, because I took her walking 
recently, and asked her what she was thinking about her career, 
college, what she wanted to do, and she says, Dad, I think I 
want to be a teacher. I said that sounds very good. Which kind 
of a teacher would you like to be? She said I don't want to be 
just a regular teacher. I want to be a science teacher like my 
teacher who has a PhD in science, and has stimulated her mind 
like I have never seen before.
    She said, But I don't want to be just a regular science 
teacher. I want to have a PhD and I want to teach in college. 
And it is amazing what a teacher at the right time can do in 
stimulating children's minds.
    And one of you said that we just needed to pay more 
attention to investing more in trained, certified teachers.
    Well, I am pleased to tell you that there is a bill on the 
president's desk, and this bill, which is entitled College Cost 
Reduction Act, has $20 billion, and the money is not taxes, it 
comes from the college student loan providers over the next 
five years, by taking out a lot of subsidies that they were 
getting, and in it, we not only address what Dr. Reed 
addressed, which was improving Pell grants. It is in there. 
Sixty percent of that 20 billion is to increase Pell grants so 
that they will exceed $5,000.
    But there is also money to invest in training teachers, and 
that is something that indicates to me, that Members of 
Congress are paying attention to presenters like you, who are 
telling us to increase that funding, and that there will be 
opportunities to attract well-trained teachers to school 
districts that have a high number of families with low income, 
and that really need to have a lot more teachers, as prepared 
as you told us, Dr. Hackwood.
    So I am pleased that we are going to eventually do what we 
should have done back in the 108th Congress, get this No Child 
Left Behind and higher education reauthorization done, and that 
you will be pleased that, definitely, there are great 
improvements being made, as I have seen in these last hearings.
    We are going to start with questions, and I am going to ask 
Dr. Reed to tell me how much do you think the state and Federal 
Government should increase their funding for reading, for 
getting our children interested and excited about reading? What 
would it take, in investment, by the State of California and 
the State of Texas, and other states, as well as the Federal 
Government?
    Because I am excited as I can be in this program that you 
were telling me about before we started the program, the PIQE 
program that you discussed with me. And what is your answer to 
my question?
    Dr. Reed. Mr. Chairman, that is a hard question about how 
much. Maybe one month of resources that are being spent in Iraq 
would be a good start. Mr. Chairman, I want to, you know, 
commend you and your colleagues again. Not only did you 
increase Pell, but as you just referred, you have put $4,000 of 
scholarship money per student, that wants to teach in the inner 
city, and that part, I commend you, and that is going to go a 
long way, because the numbers that I talked about of increasing 
math teachers, physics, and chemistry, is because California is 
investing in scholarships for people that want to teach, teach 
especially in the hard-to-work areas.
    Now back up to the reading question. That is the key to 
everything, and if we can get children to learn to read by the 
end of the third grade, so many of our problems are going to go 
away. And when I say that, you can't do math very well if you 
can't read. One of the things that we are learning, in the 11th 
grade test that I shared with you, it is called the Early 
Assessment Program, EAP, that we administer, the California 
State Universities, to all 11th graders that will take it, our 
biggest challenge in California is reading.
    Approximately 80 percent of the students who take the 11th 
grade reading test do not achieve reading at a level that they 
will be successful in a university. And when I say ``reading,'' 
I am going to say, very specifically, is reading comprehension. 
Students can read but they can't comprehend, so that they can 
take a paragraph or two, and then write something down, 
analytically, that relates to that paragraph.
    So, you know, putting our emphasis in No Child Left Behind, 
on the reading program as the priority, is a key to the math, 
and it is a key to learning, it is a key to liking to learn and 
being more comfortable.
    Chairman Hinojosa. Your answer is excellent, because I want 
it to be part of the record and reasoning for an amendment that 
I would like to introduce before we finish No Child Left 
Behind. I have been in Washington 11 years, and I have been 
participating in a RIF program, which the acronym stands for 
Reading Is Fundamental, and it is a national program that has 
worked tremendously in the Northeast, and my two daughters have 
participated in it sincerely, and they have answered the 
question I asked you.
    I said how much do you think we should invest, and how much 
importance should we give reading? And both Katie and Karin, 11 
and 13, said, Daddy, reading is fundamental. You know that. You 
have been to this program, and we have been at this weekend in 
Washington, where I am one of the sponsors.
    But the point is that if we listen to giants in education 
like you, and children who are in the 6th grade and 8th grade, 
their answer is reading, and I want to see if I can marry the 
program of PIQE and RIF for Texas, because we have similar 
statistics as California. Only 49 or 50 percent of Hispanic 
students and African American students are graduating from high 
school.
    So we really need to go back, then, for children at the age 
of one, and two and three years of age, to begin hearing the 
parents, and older brothers and sisters reading to them, and 
getting them started, so that they can be excited about books.
    So I am going to stop because I have gone over my five 
minutes. But I want to give time, then, to our distinguished 
member of Congress, Mazie Hirono, to ask her questions.
    Ms. Hirono. Thank you very much, Mr. Chairman, and 
everyone, thank you for being here. Aloha. Some of you have 
been to Hawaii, I see. I am halfway home. This trip, I won't be 
going home, but needless to say, I am very delighted to be here 
and to have the kind of presentations that you all gave. One of 
the major issues that we are going to be dealing with when we 
return--well, this is just a short weekend--but we have been 
working on No Child Left Behind in the Education and Labor 
Committee for months now.
    Some of you may have been to the hearings in Washington, 
D.C. on No Child Left Behind. We have had over a dozen 
hearings. We have received submittals from over a 100 groups 
and individuals on various aspects of No Child Left Behind.
    And I am sure that you have some thoughts about No Child 
Left Behind, and what that huge federal legislation, the impact 
of that legislation on our schools, and in California.
    I would like to start by just asking each of you if you 
have had a chance to review the proposed amendments, the 
working draft, the Miller-McKeon amendments to No Child Left 
Behind, and if you have any comments on those, if you have had 
the chance.
    Have you had the opportunity to--okay. Do you have some 
comments, or thoughts about No Child Left Behind as it stands? 
I would like to hear your views.
    Dr. Baker Well, thank you, and thank you for your interest 
in this effort. I think it is one of the most important things 
that we have to do in this Nation.
    In No Child Left Behind, one of the important things is a 
qualified teacher in every classroom, and when we think of 
science and mathematics, it goes beyond simply the ability of 
the teacher to understand the material, but how do they 
participate, and the ways in which they engage the students.
    And I want to go back to a comment I made, and one that I 
have expounded on a little bit further in the written 
testimony.
    Related to this program of teacher as scientist, to be a 
catalyst to help engage students in science and mathematics in 
the classroom, this answers two serious problems that we have 
with young people studying science and mathematics and choosing 
careers in teaching.
    The first is that they always tell you, well, as a 
scientist I can earn more money than going into teaching. But 
they also tell you, and equally important is, if I go into 
teaching, my view is that I will stagnate and be isolated from 
the scientific community.
    What this teacher-scientist program does is offer 
significant opportunities for teachers to engage in the 
scientific endeavors with scientists, practicing scientists, 
and the National Labs in California have been extraordinary in 
providing opportunities for teachers, in-service teachers, and 
we, as I said, started this year with pre-service opportunities 
for aspiring teachers.
    We also have the private sector joining in in this, and 
this has been going on for 20 years, with corporations 
providing opportunities for teachers to work in the summer in 
their laboratories. And the data for 20 years has shown that 
the teachers who participate in these programs will be retained 
in the schools at twice the rate as the average teacher. So 
they stay there longer, and it addresses the retention issue; 
but it also does something else that is very important.
    It brings a way of inquiry-based thinking into the 
classroom to engage the students. It engages the partners and 
creates learning communities in the schools, the partners being 
either the National Labs or the private sector, to help with 
guest speakers, to help with their laboratories, and what could 
be more inspiring to have a young student taught by a teacher 
who is also a scientist at JPL, and to go home and say, you 
know, Dad, my teacher knows what she is talking about cause she 
is a scientist at JPL as well, and I am excited about that, and 
I want to be a scientist.
    The example. We have teachers who need to be competent, 
they need to be effective, but they need also be inspiring if 
we are going to solve this problem of getting young kids 
interested and excited about science.
    And I mentioned this program to Secretary Spellings. She 
had a program of bringing into the classroom professionals, who 
are either early retiring, or spend part of their time, and 
those are effective programs as well. She recognized that this 
was the reverse of that in providing opportunities for teachers 
to go into laboratories and become part of the scientific 
community, and to bring that excitement of inquiry, in real 
time, into the classroom.
    If, somehow, what you do in No Child Left Behind 
incorporates some incentives for that to occur, expand the 
programs with the National Labs and provide incentives for 
broader participation of our scientific corporations in this 
country. Thank you.
    Dr. Reed. Mr. Chairman, may I just comment, quickly, about 
reading again.
    Chairman Hinojosa. Yes, sir.
    Dr. Reed. I want to commend you for broadening the focus of 
No Child Left Behind because we don't want to leave them behind 
at the elementary school. The focus needs to continue about 
reading through the middle school and the high schools. This 
country does not teach reading in high schools, and i can tell 
you that there is a whole generation of students in all these 
high schools that can't read.
    So if you could focus more of your reading effort on No 
Child Left Behind, on high school teaching reading, I think 
that would be a great service to this country.
    Chairman Hinojosa. The gentlewoman's time has expired, and 
before I recognize the next member of Congress, I want to agree 
with you on those last points you made, and I could add, that 
in the visit to China, we asked questions about their success, 
and they answered parental involvement from the time the child 
is born, and reading.
    And I knew then, after that long trip that we made for 
about 10 days, that I would come back, and see how I could 
really focus like a laser, to really pay attention to those two 
recommendations that the Chinese gave us. But we must go on.
    I would like to now recognize California, Congresswoman 
Grace Napolitano.
    Ms. Napolitano. Thank you, Mr. Chair, and to me, it is 
especially gratifying because I am a high school graduate, and 
I have no degrees and to sit here, and listen and be part of 
this, so exciting a panel of individuals who just ``blow me 
away.'' Thank you, ladies and gentlemen.
    The Chairman just touched upon it. I have been in many of 
the countries where education is primary. I know some of the 
countries are putting a lot of their time into education and 
into high technology, who are taking away the jobs that 
Americans should be doing, that we should be putting the 
education funding into, to be able to be competitive.
    And so that just goes for the record. But we need to hear 
from you what must be done at every level, and I am talking 
about not only federal, but state, the county. How do we reach 
out to the companies like Boeing and Northrop Grumman, and 
thank you, we had the Chair of Intelligence here last week, and 
he went to Boeing and Northrop Grumman, both.
    And we, in speaking to the CEO of Northrop Grumman, in a 
specific portion that we went to, he said if the immigration 
laws that are in place now were in place when I came in, he is 
from Greece, I would not be here.
    So how are we then able to help our youngsters, our 
students, that have such potential into being able to being the 
competitors that help the United States become the world power 
again, that it has been? Anybody.
    Dr. Drummond. Let me just on that point say something I 
think is important, that we square with, is that the real 
problem is not the 30 percent of the people that enter the 9th 
grade that go on to, eventually, to higher education and 
succeed. The problem is the 70 percent that don't.
    In LA Unified, I don't have an exact number, I think 30 to 
40 percent of the students in LA Unified are undocumented, as I 
understand it. In California, we are fortunate to have a law, 
that is not universally popular but it is very important, AB 
540, which allows undocumented students to graduate from 
California high schools to attend either the community college 
or the Cal State without paying out-of-state tuition. Terribly 
important.
    Unfortunately, those same students are not eligible for 
financial aid, and there has been a struggle in the state to 
get--Senator Cedillo has a bill called the California Dream 
Act. But the point being, if we continue to ignore the 70 
percent of the population--and all the role models, all the 
people getting exposed to great scientists and such is fine--
but the real point is what about those 70 percent that are not 
succeeding, that are on the streets?
    Within a one mile radius of Los Angeles Southwest College, 
there are 29 operating gangs. And the answer to young people 
not being in gangs is hope for employment, hope for a future.
    And it is very important that we build these pipelines at 
the grassroots level. If we don't intercede, if we don't 
intervene, that slide that was up there before about California 
leading the Nation, which isn't very pretty, in per capita 
income lost by 2020, a per capita income loss of perhaps as 
much as $2000, that will create a death spiral.
    $2000 less per capita income means less income tax, and 
that means less resources for the higher education community 
and the K-12. So we begin a death spiral. We can't be the 
leading state in the Nation. In fact we shouldn't have any 
states falling off the cliff like that.
    If you look at the states that aren't falling off the 
cliff, the question to ask is why aren't they. That is a very 
informative chart.
    Ms. Napolitano. Well, part of what you are saying, sir, is 
very critical for us, because statistics show that minorities, 
especially African American and Hispanic, have the largest 
dropout rates, and we are not continuing--and part of it is 
reading because they are not able to stay in school and be able 
to continue.
    I have got just a very, very small amount of time to do 
this in, unless you are going to have a second round. But, you 
know, I need to ensure that not only does education reach out 
to other academicians, but also to the business sector, and to 
the government sector, because without their help, we are not 
going to be able to make much inroad.
    We are preparing people to go to work for them, and we must 
ask them what do they need to be able to hire the students you 
are preparing. And I know in some areas it has been done.
    What else? How about the entertainment industry media? 
Because they use engineers. So do the health professions. 
Almost any professional. I must say, I have got to throw it in, 
my granddaughter is at USC in engineering school. So I am very 
proud of that fact. And, to me, it was something she has been 
dreaming of. How many youngsters that we have not reached out 
to have dreams but cannot afford it? My granddaughter happened 
to be that grandma and others kicked in to help her get to USC. 
She didn't qualify for any support.
    But how about those that really are bright students? And I 
know, between us here, we can tell you individuals who have 
come to us at the local level and said, My daughter has 
graduated from whatever high school as the valedictorian, and 
can't go on to university.
    I bet you one of us could tell you, on one hand, how many 
cases we have got of that.
    How do we get those students to be able to succeed, and be 
able to help others reach that same amount? Anybody.
    Dr. Ullah. Let me respond to that for a second. In Los 
Angeles, as Dr. Drummond indicated, we have a lot of 
challenges. One of the things that we could do in NCLB is to 
focus on strategies in the classroom, A, with a highly-
qualified teacher that knows science and mathematics, and all 
the supports in the system, to provide and retain those 
teachers. But B, to utilize and promote strategies that make 
science and mathematics accessible to students in our urban 
classrooms.
    Strategies such as using graphic organizers connecting to 
prior knowledge.
    Ms. Napolitano. The Net.
    Dr. Ullah. You know, basic features of inquiry that 
scientists use, and making sure that those are explicit in the 
professional development at all levels that we are doing, both 
preservice and in-service, in our schools. We are focusing on 
that, LA Unified, this year in science education, very 
explicitly, strategies in Los Angeles that gear themselves 
towards making science accessible to English language learners, 
which is a critical need for our area to make students achieve.
    Ms. Napolitano. I am sorry. Again, I have to run through 
this because my mind is running. But as I am listening to the 
use of technology, how many of you, or do you think the high 
schools and the junior high schools are using technology to 
reach out to the Northrops and the Boeings of the world, to 
have scientists come online and, on site, in the schools, talk 
to the students and the teachers about things that will open 
their mind, and PIQE, their interest in science and technology.
    Dr. Hackwood. I think you ``hit the nail on the head'' when 
you mention the entertainment industry, of getting--and a good 
strategy is to get the entertainment industry to encourage 
youngsters to go into science and technology. You know, 
engineering in the city. You know, the CSI effect. The number 
of students who have gone into forensic science.
    Numb3ers, that is on on a Friday night, that has really 
encouraged students to go into math.
    The entertainment industry is a critical component.
    Ms. Napolitano. Thank you, Mr. Chair, and thank you for 
your answer, Dr. Hackwood.
    Chairman Hinojosa. I have decided to put in a second round 
of questions, and with that, I will move to Congressman Joe 
Baca.
    Mr. Baca. Thank you very much, Mr. Chair, for having the 
hearing out here, and I want to thank our host, Grace 
Napolitano, who has always been a strong advocate, not only for 
the community but for education and for water issues, and many 
of the other issues that impact our State of California.
    I also want to thank, you know, Dr. Miguel Ortiz, for 
hosting us here today, and his leadership that he has 
presented, here, at Cal Poly Pomona, because this truly is an 
engineering school that does a lot of the science and the math 
and the outreach, and many of the students that do come to this 
excellent campus, and thank you very much for having it here.
    Having said that, I want to thank the panelists for sharing 
their knowledge, and their wisdom, and their concerns of what 
they need for the State of California, and as I heard them all, 
they have all said one thing. There isn't a difference between 
any of the six that spoke right now, that talked about funding.
    So when you talk about teacher preparation, you talk about 
the needs in terms of the students, it all comes to funding, 
which is why I am really glad that we have a representative 
from Texas, a representative from Hawaii that is here, because 
you need to take a message back as well. In order to get the 
funding for the State of California, you need to change the 
formula, so California receives its first share of dollars.
    That is a top priority, because when you look at the 
population of the State of California, we have more students in 
K through 12, have more students in our community colleges, and 
we have more students in our Cal State Universities, and we 
have more students in our universities than any of the other 
universities.
    Yet, when it comes down to that formula, we are not getting 
our fair share. So in order to prepare our students, we need 
the funding, and the formula has to change, which means you 
guys have to change, and sometimes we all become selfish 
because we look out for our own states. No offense but that's 
true. We all do that. We are guilty of that. But we need to 
change that formula, if we truly want to address the needs.
    And I want to ask a few of the questions that I have, 
because one of the things that was mentioned earlier, the need 
to start preparing more of our students--oh, before I do--is 
when you look at preparing and attracting teachers, because all 
of you said there is a need to have more teachers.
    Well, we need to increase the salaries for teachers. If you 
truly want to motivate and increase, whether it's science, 
math, or technology, or just in the area of teaching, we need 
to increase the level, so this way our teachers are competitive 
with the private sector, because most everybody can go out 
there and get a job starting at 60, 70, 80,000, or a 100 and 
some thousand dollars, and yet we are asking people who are 
dedicated, and we know that, and I think that is important. So 
we need to change the level.
    And then also, if we look at recruiting students into our 
state colleges and universities, we are increasing the fees 
right now. That makes it a lot more difficult. And we are 
saying we need more students; but yet the cost continues to go 
up. So there is a problem there.
    And I know that part of the problem that we had, we used to 
have partnerships between the private sector and corporate 
America, and corporate America is shrinking. So we don't have 
the kind of private participation that we have had in the past, 
and I will state that, because I had a program called YEMP, 
Youth Educational Motivational Program. It basically emphasized 
the importance of reading, writing, arithmetic, and it was done 
at the intermediate level.
    Corporate America was involved. We stopped doing that. so 
we are not doing what we should have done because we are 
outsourcing and most of the jobs have left the United States.
    So in reference to my question, Dr. Reed, let me ask you, 
that being said, everyone in the room is aware of the 
discrepancy in academic success that exists in minorities, in 
California and throughout the Nation.
    In your opinion, what can we do to ensure that our English 
language learner students have access to math, science and 
technology, and education necessary to compete?
    Dr. Reed. Congressman Baca, that is again a very difficult 
question. Let me, you know, respond to your comments. Everybody 
has a different definition of fair. I have found that out at 
Congress. And you are talking about that.
    One of the things in the reauthorization, though, that I 
know that Chairman Hinojosa and I have worried about and worked 
together on, and I think you as the leader of the caucus--if 
you can get Florida, Texas and California together, I think you 
can do something for the Hispanic-serving institutions that 
will make a big difference.
    It has been done for the historic black institutions in 
this country, and we have got to increase the federal support 
for the Hispanic-serving institutions, which gets at exactly 
what you just said in preparing good teachers, high-performing 
teachers to teach reading, math, and science.
    That would be a huge step in being able to do that, if you 
could make those changes.
    Mr. Baca. I know that my time has passed but just to answer 
that real quick. We have got more funding for Hispanic-serving 
institutes in the history of the Congress, this time around, 
than any other time, thanks to our leader, Ruben Hinojosa, who 
chairs our task on not only higher education but K through 12 
for Hispanic-serving institutes, and a variety of different 
committees.
    I do agree with you, is that we need to put more money, and 
I do appreciate the fact that 19 out of the 23 institutions 
here, in the State of California, are Hispanic-serving 
institutes. So can you imagine, when the numbers were mentioned 
at community colleges, that 80 percent of the students are 
minorities. So they all basically, our community colleges are 
Hispanic-serving institutes, and we need to put in more money.
    Chairman Hinojosa. Thank you, Congressman Baca.
    Dr. Mardirosian. My name is Vahac Mardirosian. I was 
looking at the No Child Left Behind program----
    Chairman Hinojosa. Will you pause, please. You need to get 
to a microphone because you are not being heard. The record is 
not picking you up.
    Dr. Mardirosian. I thought I had a pretty loud voice.
    Chairman Hinojosa. I am afraid not. And after your 
statement, then I am going to hold all the other comments and 
answers to the panelists because that is the way that we have 
set up our hearing. With all due respect to you, I am going to 
let you have one minute to make your statement.
    Dr. Mardirosian. [off mic] Thank you. No Child Left Behind 
has four gradations. Basic, low basic, basic competent and 
advanced, and in programs is supposed to be children be graded 
on four levels. In math and reading. And I just happened to see 
what the achievement level of children in Puerto Rico was, and 
found that Puerto Rico, 96 percent of the children in 4th and 
8th grade, 96 percent are below basic. And I just wondered who 
is minding the store? The only people who really would like 
their children to be achieving at the level where they would go 
to college and become engineers are the parents, and you are 
spending billions of dollars in a system, ignoring that the 
first and most important teacher in every household is a 
mother.
    And if we were wise enough, we would spend a little bit of 
that money in teaching mothers what they need to do in order 
for their children to achieve. The United States has one fourth 
of the population of China. China is four times as many people 
as the United States. But China produces ten times more 
engineers than is in the United States.
    Chairman Hinojosa. I will be glad to visit with you after 
the hearing. Thank you very much for your statement.
    I wanted to say that in 1996, when I was elected, I went to 
Congress wanting to see what could be done to an area where I 
was born and raised, that was so neglected, that not even a 
President would come visit us.
    I found out that there was a strong movement to make 
English the official language, and every other language to be 
eliminated from all ballots, and any kind of communication to 
the households.
    I also found out that the idea was to discontinue the 
Department of Education at the federal level, because those 
leaders wanted the education responsibility to be local and 
state.
    So looking as a member of the local school board, I saw 
that 7 percent of our LEA budget came from the Federal 
Government. The balance came from local and state property 
taxes.
    So when Congressman Baca was talking about getting 
increasing funding, and all of that, you have to understand 
that those are very difficult questions, when the mindset in 
Washington is that education, especially K-12, is the 
responsibility of the state.
    So for us to increase funding as we have under the 
Reconciliation of Higher Education Act, which has--by the way, 
Dr. Drummond said that we needed to help HSIs and HBCUs. Well, 
for your information, never in our history, since the U.S. 
Department of Education had Title Five, and I believe the other 
title for the HBCUs is seven? It is Title Three. That I got 
there, and they were funding HSIs with $10 million a year for 
all the 200 HSIs. Today, it is at 95 million through lots of 
effort of the Congressional Hispanic Caucus.
    However, now that I am Chairman of the Higher Ed, we were 
able to take out of this reconciliation of the act, of $20 
billion we took $500 million, and said this is going to be 
given, 200 million to HSIs and 200 million to HBCUs, and thanks 
to you, we even took a 100 million and divided it up so that 
Hawaiian students attending universities, and Native American 
predominantly controlled colleges and universities, and 
predominantly black colleges, would share 100 million.
    All of this to say we are hearing you and we are doing 
something about it. But to be able to come up with 500 million 
over two years, not the five years of the regular act, because 
of my insistence that we have waited too long, and that it 
needed to be done now, we got the votes in the committee to 
spread it out over two years.
    Now you just have to help us come up with a rule on how 
it's going to be spent, so that the biggest state, with the 
biggest number of HSIs, which is California, will certainly be 
able to qualify, because it is going to be on a competitive 
basis.
    But Puerto Rico is also already in Washington to see how 
they can have input into that. So we are listening. But the 
Federal Government mindset has to change, and that is that we 
must invest more than we have in the past in the elementary and 
secondary education as well as higher ed.
    If it were up to me, I'd make sure that we upped it to 15 
percent of the local education budget. That is a substantial 
amount of money. I am sorry, I am not going to go into the 
audience because I said that I wouldn't allow another round of 
questions, and I am going to start with my Congresswoman 
Hirono.
    Ms. Hirono. Thank you. There are just so many educational 
reforms that states are trying, and you certainly are doing, 
and so many public-private partnerships that need to be 
encouraged and fostered.
    When we look at where we should spend our resources, if 
resources are deemed finite, I am particularly focused on the 
early education part of you mentioned the importance of really 
hooking the students at a really young age to law, science, and 
math, and reading, and all those areas.
    So I did want to mention that one of the changes that I 
hope will be made to No Child Left Behind will be support for 
pre-K, cause there is science and research showing that when a 
child goes to preschool, that child is much more prepared to 
succeed in kindergarten and basically all through life.
    So that is a piece that is not in No Child Left Behind in 
any appreciable way at all. The Chairman had asked me to put 
together language that will provide that kind of federal 
support, and it is in a bill which I have introduced, along 
with the Chair of the committee, Chairman Miller. It is called 
the PRE-K Act of 2007. It is a separate bill right now. It 
creates a federal-state partnership with an authorized funding 
of a billion dollars a year for five years. Of course the 
appropriators will have to decide what the level of actual 
funding will be.
    But what it does is the Federal Government will provide 
grants to states, to encourage states to move toward making 
available quality, that is a really important adjective, 
quality, high quality preschool education.
    And so it is to support what states are doing, not to 
supplant. Much of what NCLB has done is to supplant states' 
efforts, and that is where a lot of the criticism has come. So 
I hope that all of you, who are I know much more focused on the 
higher education side of things, that you also recognize how 
important it is to do some fundamental things, which is at the 
preschool level, and in the elementary levels, cause that is a 
bill that I am hoping will become a new title to No Child Left 
Behind, which it will be called the PRE-K Act of 2007.
    So you are nodding your heads. I hope that means that you 
are in agreement with that kind of a prospective orientation.
    Dr. Reed. I am in agreement but I just want to caution. 
Included in that is the professional preparation of the people 
who work in the preschool area.
    Ms. Hirono. Oh, definitely.
    Dr. Reed. And it is not day care.
    Ms. Hirono. That is right.
    Dr. Reed. What is important is that we professionally 
recognize and pay these people, and they should also be 
educated to be able to teach these kids to learn, to learn.
    Ms. Hirono. I agree completely. That is one of the great 
needs for a pre-K education. That is, where do you find the 
qualified teachers? And so the College Reduction Act does 
have--we encourage those who go into that kind of education, 
that kind of career, as well as police officers, first 
responders, nurses. That they will have a loan forgiveness 
program, and that is one of the ways that we are attempting to 
address the shortage there.
    Thank you. Thank you, Mr. Chairman.
    Chairman Hinojosa. I will go now to Congresswoman Grace 
Napolitano.
    Ms. Napolitano. Thank you, again, Mr. Chair, and I 
apologize. I wasn't here for what I hear was an interesting 
comment from those that feel that parents need to be brought 
into the picture, which is exceedingly important, and in 
looking at this Parent Institute for Quality Education 
programs, maybe we need a summit of all the programs that are 
out there, to explain how they are working, and be able to see 
how some of that assistance and funding, and maybe some of the 
assistance from business can help foster the growth of those. 
We just don't work out of the box, sometimes, and we need to 
think globally, who else can we bring in to help in this area?
    A couple of other things. We started a program in East LA 
some eight years ago, that businessmen brought to my attention, 
that they wanted to do. Instead of giving Christmas gifts to 
children, Christmas toys, how about books? So what he decided--
and he came to me and asked for money.
    There is no money for that kind of a thing. There is just 
no program. So I challenged him with the professors that he 
brought with him, to go back to Cal State LA, and begin to work 
on getting the student teachers to come in and practice at a 
grammar school, being able to talk to the parents who are, by 
the way, not English speakers, most of them, in East LA, and 
challenge them.
    So they started a program. So now we have a program, there 
are schools on a waiting list, where they are going to, on 
Saturdays, bring the families in who signed an agreement, that 
they will go home and read to their children.
    It is a literacy program, because now, then, the grammar 
school children are beginning to get the parent to say, okay, 
espanol and that is something, that we need to look at all the 
programs that are out there, that are helping us get the 
parents involved.
    And when you talk about this, do it in languages, and not 
just in Spanish. But in Chinese, and other areas, where we have 
parents who have no concept of what is going on in the school.
    So if a student doesn't give them the information, that 
parent doesn't know which way to point the child. But if you 
bring them, like Chancellor Reed, on that program you are 
talking about, and talk to the parents in the language they 
understand, they can go home and tell that child, you are going 
to start looking at this particular program that will put you 
on a career path.
    It is important. We live in such a, what would I say? 
homogenous society, that we need to reach out to those parents, 
and unfortunately, in California, we have so many immigrants 
who have never gone to school or have low achievement in 
school.
    How can they do something they have never been in? I was 
never in college until I married. Well, how could I tell my 
children, then, this is the path you have got to take, or 
should take, or must take? So we need to think other than to 
reach out to the populace that we serve, all of us.
    Part of is maybe the universities would give credit, or 
assist, or find some way of being able to help volunteers who 
are going to be going to these programs and help it expand. We 
have schools on waiting lists to be able to teach literacy. Why 
are we not working in tandem with them, to be able to support 
those programs in the inner cities, in barrios, in wherever. So 
I am kind of just throwing it out for you.
    But I have got to tell you one other thing that we are 
working on. I am the co-chair of the Mental Health Caucus in 
Washington, D.C. In working with Tim Murphy, my Republican 
colleague, we set out a bill that will help universities be 
able to deal with the issue, the Virginia Tech type, allow the 
university to be able to share information if they do certain 
things with the people involved, the parents, or the spouses of 
the students that you have in your school, to try to avoid 
another such happening.
    Please look at it, and I know most of you have sent letters 
of support. This is key for us to be able to help you have a 
safe campus.
    But going back to parent information, when my children, and 
my baby is 47, were going to school, I was told you leave the 
student on the sidewalk, and he goes to school, and then your 
responsibilities are done.
    Well, that translated in my son, when he was in high 
school, being told by the counselor that he was not college 
material. Cause I didn't know how to help him.
    So understand, things have evolved, changed, but you still 
have a lot of that mentality out there in some of your 
teachers, and some of those that feel that the parents' 
involvement is not required because you are interfering in our 
education curriculum.
    And I am sorry to say that I still hear that from some 
parents. The outreach. And PT is not enough. I am sorry. You 
need to have more engagement with the students and the parents 
to be able to be more successful in bringing out those programs 
that are so key to getting our workforce and our students the 
capability of being what they can be, or must be, to help us 
regain our stature.
    I have a whole litany. How much do I have, sir?
    Chairman Hinojosa. Thirty seconds.
    Ms. Napolitano. Thirty seconds. Thank you.
    Dr. Reed. Congresswoman Napolitano, we have printed this 
poster in six languages.
    Chairman Hinojosa. With Congresswoman Napolitano finishing 
her questions, I now move to Doc--Congressman Joe Baba.
    Mr. Baca. Thank you. I appreciate the promotion, being a 
doctor. Maybe I will get an honorary doctorate degree.
    First of all, before I ask the questions, I want to add, 
for the record, Dr. Barbara Flores who is the National 
Association for Bilingual Education, she has a set of five 
concerns I would like to enter for the record, if you may, Mr. 
Chair, accept those concerns.
    And then on the panelists, I have five questions that I 
would like to ask, and I would like you to be as short as 
possible, because I want the rest of the five to try to answer 
the questions, and they are just going to be questions. I am 
not going to make a statement.
    So Dr. Baker, I will start with you. In your opinion, what 
additional steps are necessary at the K through 12 level to 
ensure culturally linguistic, appropriation learning, so that 
California Latino students are better prepared with science, 
math and technology skills they need to succeed at college and 
at the university level, and if you can be short and brief, so 
the others can answer as well, additional questions.
    Dr. Baker Thank you. I think the most important thing that 
can be done is in schools of education, and the preparation of 
undergraduates for teaching, we should have significantly more 
effort to attract role models of people who come from those 
neighborhoods, and that we should provide incentives for people 
to go back to teach, so that they understand the people that 
they are working with.
    That would be the best way, I think, to make progress.
    Mr. Baca. Thank you. The next question is for Dr. 
Tarantino. In your opinion, what effects have the president's 
budget constraints had on NASA, educational budget, and in 
particular the workforce related to programs that put emphasis 
on careers in space science industry, and what can we do at the 
federal level for future alleviation of the situation?
    Dr. Tarantino. Well, it has constrained it, and I would say 
I really appreciate the Chairman's remark at the beginning of 
this about how space can inspire people to go into technology. 
That it is very important, and particularly when we are looking 
at an era of diminishing enrollments, and graduate and 
undergrad, higher education in the math and sciences 
technologies. Our thinking with respect to space cannot be a 
minor part of the solution.
    Mr. Baca. Thank you. Dr. Drummond, in your testimony you 
state that 85 percent of the students require some form of 
remediation in math. My question is what additional steps must 
we take at both the federal and local level to ensure K through 
12 students have the necessary math skills to avoid the kind of 
remediation when they move into higher education? And you 
mentioned that about getting into colleges.
    Dr. Drummond. Yes. Let me first thank you all for your 
attention to TRIO, and EOP&S. It is interesting that EOP&S 
deals with students who come in with lower scores and 
capabilities but have a higher graduation rate. I don't want to 
lose the great importance of the program.
    To answer your question, I believe we have to really focus 
on the pipeline issues. You know, I ran marathons for many 
years, and one thing you don't do when you run marathons is 
look at the 26 mile marker at the end. You look at the next 
mile marker, because you get pretty discouraged if you look 26 
miles out.
    The point is that if we go tell people, you know, your goal 
is to be a PhD, or be this or that, an awful lot of these 
students, the 70 percent that go nowhere get very discouraged 
and can't see that far ahead. So it is a pipeline issue.
    It is very important community colleges work with the 
middle schools and the high schools. It is very important the 
CSUs are right along with us. And some of the grants I talked 
about, the Heinecke grant, a new development in Los Angeles 
called READY, an initiative, all involving those partners, so 
that we are reaching into the middle schools, and we are giving 
the kids not only an idea of the next step but we are giving 
them support.
    We are helping the faculty in the middle schools. We are 
all working together. Cal State faculty helping ours, ours 
helping them, them helping us. It is really a conversation. 
These are not silos. These young people have to move through 
these pipelines. And so any programs that encourage that sort 
of partnership are very positive and very powerful, and Title 
Five can certainly be one vehicle for that.
    Mr. Baca. Okay. Thank you. We all know that difficulties 
can be to have proper resources in our schools in the major 
urban areas like LA. We know that overcrowding of our schools 
is almost a major deterrent in school achievement.
    In your professional experience, how much of the difference 
would smaller classrooms in science and math make in student 
achievement?
    Dr. Ullah. The research on that is still out in terms of 
smaller class size and effective student achievement. But in my 
view, I think that if we reduce class sizes in science and 
mathematics, as there are bills, for instance, our 1133 bill 
here in California is reducing mathematics and science 
classrooms in the country.
    Again, personalization of the environment to kids in our 
schools is also important as you reduce class size. So I would 
say personalization, along with reduced class size, and as our 
colleagues have said, you know, preparation for teachers to 
work with students in our areas is key.
    Mr. Baca. I have got one more question. Dr. Hackwood, I 
represent a district that has close to 70 percent Latino 
population. This is a statistic that is quite troubling to me. 
What kind of incentives do you think are necessary to attract 
more qualified teachers to each in the underprivileged and high 
minority areas?
    Dr. Hackwood. I think the most important thing is to 
professionalize the discipline of teaching, to recognize that 
teachers are professionals. They are doing an extremely 
important job, and the support of teachers, and through 
professional development, for example, the kinds of programs 
that you have heard about with the federal laboratories, a 
connection to the universities so that the teachers can feel 
part of the science and technology community.
    Salary is an issue but it's not as much an issue as the 
support and professionalization of the teaching career, and to 
get teachers teaching in the geographic areas where they 
represent the same population that they came from.
    Mr. Baca. Okay. I know that my time has run out, but 
Congresswoman Hirono asked an important question about the 
Leave No Child Behind Act, and as we look at the Leave No Child 
Behind Act, what effects does overcrowdedness have in terms of 
learning behavior and the evaluation of teachers? Because I 
believe that our teachers are getting a ``bad rap'' with 
overcrowded classrooms in the State of California compared to 
other states, too, as well.
    Would anybody like to elaborate on that?
    Dr. Ullah. I would like to say one thing about overcrowded 
schools. In Los Angeles, many of our schools are on year-round 
calendars, and these year-round calendars and multi-track 
schools are a result of not having enough facilities and 
qualified people to run them.
    So as a result, you have some deleterious effects on 
student learning and teacher morale related to schools 
operating around a year-round calendar.
    So any support, policies, at the state, federal, county 
levels of support, facilities construction, and again, teacher 
preparation, are going to be key to helping kids and teachers 
have learning environments that would help the process.
    Chairman Hinojosa. I want to thank my colleagues and 
members of Congress for participating today and for asking your 
questions. It raised the quality of our hearing. I messed up my 
five minutes of asking questions but I want to make closing 
statements, and I am going to ask this one last question of Dr. 
Hackwood.
    There is a national controversy as to whether the National 
Council on Accreditation of Teacher Education, or some 
alternative accreditation, should play the major role in 
addressing the problem that you were addressing.
    What is your perspective regarding alternative teacher 
preparation programs for math and science teachers and the 
accreditation of those programs?
    Dr. Hackwood. Alternative teacher preparation programs are 
very important, and the data that we have show that a 
significant fraction of teachers come through that program. The 
various programs. You saw the complexity of the wiring diagram 
I showed. So if you remove those ways of getting into the 
teaching profession, you will exacerbate the problem. You will 
make the problem much worse.
    The question I think you are asking is on measuring the 
quality and the performance of the teacher, so that you have 
the right type of person teaching in the classroom, with the 
right pedagogy and the right support to be able to teach what 
they are teaching.
    I think that is a much more fundamental issue to ask, and 
comparing credentialing programs----
    Mr. Baca. So how should we address that?
    Dr. Hackwood. By comparing credentialing programs and 
looking what the pedagogy is. What ammunition are we giving 
teachers to go and teach in the classroom?
    Chairman Hinojosa. Well, I thank you. This has been very 
interesting, and in my closing remarks, I would like to thank 
our hosts for today's hearing, California State Polytechnic 
University at Pomona.
    I also wish to thank President Michael Ortiz and his staff 
for working with ours in Washington to make this hearing as 
interesting as it has been.
    I thank everyone for providing this wonderful venue, and 
for the kind hospitality given to those of us who came from 
Washington. We thank you, and this hearing is ended.
    [Whereupon, at 11:20 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
